<html>
<title> - THE NATIONAL PARKS: PRESERVATION OF HISTORIC SITES AND THE NORTHEAST REGION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





 THE NATIONAL PARKS: PRESERVATION OF HISTORIC SITES AND THE NORTHEAST 
                                 REGION

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 24, 2005

                               __________

                           Serial No. 109-109

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 _____

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
25-530 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ELEANOR HOLMES NORTON, District of 
VIRGINIA FOXX, North Carolina            Columbia

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                Brandon Lerch, Professional Staff Member
               Mark Pfundstein, Professional Staff Member
                           Malia Holst, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 24, 2005..................................     1
Statement of:
    Kennedy, Roger, National Council chairman, National Parks 
      Conservation Association; Marilyn Fenollosa, National Trust 
      for Historic Preservation; Ken Olson, president, Friends of 
      Acadia National Park; and Lt. John McCauley, museum 
      curator, Ancient and Honorable Artillery Company of 
      Massachusetts..............................................    29
        Fenollosa, Marilyn.......................................    46
        Kennedy, Roger...........................................    29
        McCauley, Lt. John.......................................    57
        Olson, Ken...............................................    52
    McIntosh, Robert W., Associate Regional Director for Planning 
      and Partnerships, Northeast Region, National Park Service..     6
Letters, statements, etc., submitted for the record by:
    Fenollosa, Marilyn, National Trust for Historic Preservation, 
      prepared statement of......................................    49
    Kennedy, Roger, National Council chairman, National Parks 
      Conservation Association, prepared statement of............    31
    McCauley, Lt. John, museum curator, Ancient and Honorable 
      Artillery Company of Massachusetts, prepared statement of..    60
    McIntosh, Robert W., Associate Regional Director for Planning 
      and Partnerships, Northeast Region, National Park Service, 
      prepared statement of......................................    12
    Olson, Ken, president, Friends of Acadia National Park, 
      prepared statement of......................................    55
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4

 
 THE NATIONAL PARKS: PRESERVATION OF HISTORIC SITES AND THE NORTHEAST 
                                 REGION

                              ----------                              


                       WEDNESDAY, AUGUST 24, 2005

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                        Boston, MA.
    The subcommittee met, pursuant to notice, at 10:10 a.m., in 
Faneuil Hall, Boston, MA, Hon. Mark E. Souder (chairman of the 
subcommittee) presiding.
    Present: Representative Souder.
    Staff present: Brandon Lerch and Mark Pfundstein, 
professional staff members.
    Mr. Souder. Good morning and thank you all for joining us. 
This hearing is the third in a series of hearings about the 
critical issues facing the National Park Service.
    Anyone with even a passing interest in the national parks 
is aware of the continuing pressures the National Park Service 
is facing. The National Park Service manages a diverse number 
of parks, seashores, historic sites, and lake shores. The 
Northeast region is a perfect example of this diversity. Acadia 
National Park, Cape Code National Seashore, and Minute Man 
National Historical Park are just a few of the NPS units in the 
region.
    This hearing will examine northeast regional sites. The 
natural parks of the region provide recreational opportunities 
for millions of people. They preserve open spaces, and sustain 
a variety of wildlife, natural formations, and picturesque 
landscapes.
    The northeast region is also home to a variety of cultural 
landmarks and historical sites. Just as natural parks provide 
benefits and inspiration to millions, historical sites offer a 
window to the past and help us relate to those who have come 
before us. Given Boston's role in our country's history, it is 
appropriate that we examine historical preservation in this 
most historic of cities.
    The preservation of our historical and cultural heritage is 
one of the most important and challenging missions of the 
National Park Service. These sites represent our history and 
the story of our Nation. Preserving them is vital if we are 
going to pass our history to our children, grandchildren, and 
future generations.
    Preservation, restoration, and maintenance of these sites 
is not cheap. It takes much time and money to keep them in 
operating order, to make sure that they are safe, and to ensure 
that they can adequately convey their story and context in 
history.
    All too often important artifacts are lost through neglect 
or purposeful destruction. When this occurs there is not much 
we can do to recover the site. Creating replicas of sites is 
possible, but they do not convey the same experience. It is 
imperative that we not let these sites be destroyed.
    Acquiring and keeping these sites in good repair is a 
central mission of the National Park Service. Unfortunately, 
maintaining historical sites, particularly those acquired in 
poor condition, is expensive, and the National Park Service 
budget is tight. This hearing will examine how the National 
Park Service makes the decisions regarding these treasures.
    Furthermore, no assessment of the Park Service can be 
complete without also speaking to outside groups. The groups 
represented here today are passionate about the national parks 
and historical preservation. They have been able to mobilize 
the public and keep them interested in these issues, sometimes 
for generations. They have unique perspectives and can inform 
us how to raise awareness among the public.
    Today I am joined on the first panel by Robert W. McIntosh, 
the Associate Regional Director for Planning and Partnerships 
for the Northeast Region of the National Park Service and a 
veteran of these hearings who was at our first one in 
Gettysburg, and Michael Creasey, the Superintendent of the 
Lowell National Historical Park and Chair of the Granite 
Subcluster.
    On the second panel I would also like to welcome my friend, 
Roger Kennedy, the National Council chairman of National Parks 
Conservation Association, and former director of the National 
Park Service, and famous author. Also, welcome to Marilyn 
Fenollosa of the National Trust for Historic Preservation and 
Ken Olson, the president of Friends of Acadia National Park. 
Our final witness on the second panel is Lt. John McCauley who 
is the museum curator for the Ancient and Honorable Artillery 
Company of Massachusetts.
    Before I proceed with the process of this committee, a lot 
of times when we are doing field hearings I try to explain what 
the Government Reform Committee is and what this subcommittee 
is just briefly so those in attendance kind of understand what 
our role is.
    In Congress we will have an authorizing committee that will 
do legislation so, for example, Parks legislation comes to the 
Resources Committee. The Appropriations Committee funds the 
actual budget. The Government Reform Committee then is to look 
at whether the funds that are appropriated and authorized are 
both being spent the way Congress intended them to be spent and 
whether or not there are things that either need to be changed 
through regulations, through laws, or through adequate funding 
questions.
    Historically whenever we plunge into an issue, whether it 
be oversight of problems ranging from in the last 
administration our committee was most famous from everything 
from the Travel Office to Whitewater to China investigations. 
Most recently most people know us as asking Mark McGuire 
whether he had ever done steroids and him not being able to 
remember.
    Whenever we do these different types of hearings, the 
authorizing committees somewhat have some concerns. The fact is 
the oversight committee existed in the early days of Congress 
before the authorizing committees. What we have been doing here 
systematically because though my Subcommittee is Criminal 
Justice, Drug Policy, and Human Resources and we have oversight 
over Justice Department, HHS, Department of Education, as well 
as Department of HUD, and any drug policy in any agency, also 
because of my personal interest in negotiating with other 
subcommittee chairmen was able to have national parks come 
under oversight of my subcommittee as well as a number of other 
issues.
    One of the things we are doing is a systematic look at our 
entire National Park System and looking at it as we move toward 
our centennial, as we look at the various problems and 
pressures on the park system. This is the third of what will 
likely be a minimum of eight hearings around the country moving 
toward a 2-year report.
    We did this a few years ago on Border and that became the 
fundamental report that we used as we created the Homeland 
Security Committee and the Border Subcommittee there and we 
want to do a strong analysis working with all the different 
groups as well that we can then try to discuss as we try to 
figure out what in Congress we need to do working with the 
administration on how best to preserve our national parks.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. With that background, first let me do two 
procedural matters. I ask for unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record and that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection it is so ordered.
    I would also ask unanimous consent that all exhibits, 
documents, and other materials referred to by Members may be 
included in the hearing record, that all Members be permitted 
to revise and extend their remarks. Without objection it is so 
ordered. Those are procedural things we do with our field 
hearings.
    Let me make one other comment. These hearings are very 
bipartisan. Mr. Cummings, ranking member and Democrat of this 
committee, couldn't be here with me today. He was with me 
yesterday at a field hearing on Meth in the Midwest.
    The mere fact that we are holding this hearing without him 
present indicates this is a bipartisan effort and we are doing 
this in a pretty much completely unanimous way in our 
subcommittee and look forward to continuing to involve him and 
the other members of the subcommittee. That is not typical of 
the way Congress is working right now. On this subcommittee we 
have been able to do that both on narcotics and in the parks 
area.
    One of the things we do as an oversight committee is ask 
all our witnesses to testify under oath. Rafael Palmiero is 
going through this with his attorneys right now learning why we 
do this. We don't expect to have that problem today and Mr. 
McIntosh has already shown that he has made it through the 
first round fine.
    If you could rise and, Mr. Creasey, if you could as well, 
raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses 
responded in the affirmative.
    Now I would like to yield and we are going to have a--for 
those of you who don't know me, I am a very conservative 
Republican so this is hard to say. We are going to have a very 
liberal clock today. We have a 5-minute rule. We have asked 
everybody's testimony to be at 5 minutes but if you want to go 
over, that is fine. We will put the clock on so you know when 
the yellow comes on with 1 minute to go.

 STATEMENT OF ROBERT W. McINTOSH, ASSOCIATE REGIONAL DIRECTOR 
FOR PLANNING AND PARTNERSHIPS, NORTHEAST REGION, NATIONAL PARK 
                            SERVICE

    Mr. McIntosh. Thank you, Congressman. As was the case at 
Gettysburg, I did have a little more extended remarks so the 
clock expired but if you really want me to stop, just point the 
finger and I will do that.
    Mr. Souder. If you see me doze off, that would be an early 
warning sign.
    Mr. McIntosh. I am certainly pleased to have the 
opportunity once again to participate in these hearings and 
welcome you. Mr. Creasey and I welcome you to Boston and to the 
Northeast Region of the National Park Service. We hope that our 
comments today will be helpful in the committee's work and 
deliberations.
    Before I continue, I would like to also, on behalf of the 
National Park Service, welcome to this session the 
distinguished former director Roger Kennedy. Roger is a 
colleague and a friend of, I think, all of the Park Service 
employees that were in service at the time of his leadership 
and we deeply and truly appreciate his commitment and 
dedication to us at that time.
    The extent of my testimony will focus primarily on the 
parks in northern New England. I think we have tried to limit 
the scope to Maine and Massachusetts and we have one park in 
Vermont and one park in New Hampshire.
    As my testimony indicates, the region itself is 238 square 
miles with a population of about 68 million people. We are home 
to about 24 percent of the Nation's population with a 
population density of 288 people per square mile.
    That is against the national average of about 80. We have a 
lot of folks who are busy in their education and in their work, 
as well as in their recreational pursuits. We play in the 
northeast a large role in providing close-to-home recreation as 
well as destination visits to our great national parks in the 
northeast.
    We service about 51 million people a year. That is about 18 
percent of the national total. Region-wide the 13 northeast 
States contain about 75 congressionally designated units of the 
National Park System. We have 25 affiliated or related areas 
including 14 national heritage areas. Within this region in 
these parks we have about a quarter of the system's museum 
collections, a quarter of the historic structures, and almost 
half of the Nation's National Historic Landmarks.
    I noted with some pride this morning in the business 
section of the Boston paper, the Globe, that the owners of 
Fenway Park are seeking National Historic Landmark status so 
that they might qualify for the Historic Preservation tax 
credits which provide developers of commercial development, 
commercial use business properties up to 20 percent credit for 
the rehabilitation work that they do. It is aside from the 
operation of the parks, but it has been a major contribution in 
this country to historic preservation over the last almost 30 
years at this point.
    In addition to administering the parks in this region, we 
provide strong assistance, significant assistance to these 
heritage areas. We have a very effective Rivers, Trails and 
Conservation Assistance program that works with local States 
and local communities. We administer the Land and Water 
Conservation Fund which provides money for Federal land 
acquisition as well as allocations to the State for 50 percent 
cost sharing for acquisition and development of recreation and 
open space lands.
    Most recently we are active in working with the General 
Services Administration [GSA] and the Coast Guard in the 
transfer of historic lighthouse properties. That is done 
through a Request for Proposals [RFP] process and it makes the 
property available to nonprofit organizations free of cost as 
long as they provide for the historic preservation of those 
properties and for public access.
    The region has approximately 4,000 employees that are 
working across the region in the central offices as well as in 
the parks. We benefited, at least in 2004, from 825,000 
volunteer hours. If you do the math, that is equal to about 496 
work-years of effort. In a sense, our work force has increased 
by that amount. These people, Volunteers in the Park, have a 
long tradition and a long list of dedicated individuals who 
provide assistance to the service across the system.
    The region's budget, $261 million in fiscal year 2005, $230 
million of those $261 are dedicated in the parks to the 
operation of the parks. The remainder of that amount is made up 
of $8.3 million for cyclic maintenance; $10.2 million for 
repair/rehab; $2.1 million for cultural resource preservation; 
$1.4 million for natural resources; $1.5 million for 
collections management; and $7.7 million in other project 
funds.
    These are annual funds that are provided to the service and 
the projects move from park to park through various priority 
rating systems as to what parks get what projects in what year. 
In fiscal year 2006 the appropriations bill will increase the 
park's financial capabilities in meeting the President's goal 
to address the maintenance backlog. The amount of $230 million 
includes the congressionally authorized base increases of 4 
percent in 2005.
    The 2006 act provides for about a 3.1 percent increase 
across the board in the Park Service. Those numbers are very 
telling because while they are increasing it is basically 
enabling us to stay afloat given the fixed cost of operating 
the business. Most recently obviously the energy costs that all 
of us suffer personally and in our businesses and certainly in 
the Park Service.
    One simple factor in that equation is that the benefits of 
the Federal employees that almost without missing a year we 
received a pay increase but not every year do we receive the 
amount of dollars equal to that increase to sustain those 
costs.
    We rely obviously on other funding sources. Namely one of 
the most important ones is the recreation fee authorization 
that was reauthorized in 2005 giving the Park Service a 10-year 
window to use the fee program. At Boston Harbor Islands 
National Recreation Area, $120,000 went to trails, campsites, 
and building rehabilitation in the Harbor Islands.
    I think it is significant to note in this particular case 
most of that money went to supplies, materials and supervision 
of a youth project within the city or from the city that 
committed the labor for that effort.
    At Cape Cod National Seashore $1.7 million went for beach 
and park improvements and visitor safety. At Lowell National 
Historic Park, Mr. Creasey's park, almost $419 million for 
rehabilitating and upgrading the radio system--yes, you keep 
track of that, don't you? $418,000 for the radio system, 
visitor and employee safety measures, and conservation of the 
historic walkways and landscape along the canals and the 
Merrimack River.
    At Acadia National Park the fees since 1997 were $10 
million, which have been committed to some very important and 
very visible projects providing visitor services, resource 
protection, and maintenance. A notable accomplishment includes 
the development and operation of the Island Explorer which is a 
transportation system that responsibilities are shared with the 
Park Service, the local communities, and the State of Maine as 
well as Friends of Acadia, the nonprofit Friends group that 
ably supports us.
    Historic preservation, obviously given the statistics of 
this region and given the history of this region, is a core 
mission for us. Obviously within this region, in Boston and 
Philadelphia and New York various activities that constituted 
the debate that this room itself is significant in American 
history for the striving for independence from colonial powers 
and so on.
    Boston National Historical Park is made up of a series of 
historic sites that were significant at that time. Paul 
Revere's home, the Old North Church. Just south of town in 
Quincy the Adams Homestead. That along with the John F. Kennedy 
Birthplace are the two Presidential sites within the National 
Park System in New England.
    Then a little further to the west and certainly significant 
in the strive for independence was Minute Man National 
Historical Park in Concord. Minute Man just completed, or is 
completing a major project, the rehabilitation of the Old North 
Bridge and the landscape surrounding that and the two monuments 
that are at that location. That is a park which is significant 
in visitation and the tourism industry in Massachusetts and 
receives about 1.2 million visitors a year.
    Most recently as well at Minute Man a significant effort 
was undertaken to bring the battle road unit to life. That is 
the largest unit in the park and its significance is the route 
of Paul Revere's ride as well as the line of retreat for the 
British after the battle at the bridge. In addition to that, 
the landscapes along that route as well as several historic 
properties that were extant at the time of Paul Revere's ride 
and the battle have been restored.
    At Lowell most recently the park has joined forces with the 
Friends of Longfellow to recover the rich and historic 
landscape of the formal garden properties to its former glory. 
A capital campaign completed by the Friends in 2005 raised 
$800,000 in public and private donations for that effort.
    Longfellow as well was one of the first projects of Save 
America's Treasures and in the late 1990's received a 
combination of funding sources but received about $2 million to 
rehabilitate the historic structure and provide for fire 
suppression and air conditioning and other necessary things for 
a historic structure like that. In this building, and just down 
the street at the old State House, in 2004 they received 
significant meticulous renovations that took care of the many 
aspects of deterioration and maintenance needs of these two 
buildings.
    I think one story that is important to tell here is that it 
is only 15 years ago that we spent a significant amount of 
money in these two buildings as well but not because of overuse 
and not because of anything but historic structures or any 
structure that requires ongoing maintenance so 15 years later 
we are touching up and fixing many of the things that were 
fixed 15 years ago.
    Once we provide funds for a project, it is not that we need 
to be thinking in that time line and that is the importance of 
those cyclic programs and the repair rehab programs to provide 
that type of funding.
    At the Boston Navy Yard, funds are provided for the 
Historic Paint House and the Commandante's House. This year 
just recently the Boston Historical Park broke ground for the 
restoration of the Bunker Hill monument and the parkland 
surrounding it.
    In Acadia, again, Federal funding and partner funding for 
the rehabilitation of the historic campgrounds built in the 
1930's by the Civilian Conservation Corps and rehabilitation of 
the trails which were laid out originally prior to the 
establishment of the National Park System and prior to the 
establishment of Acadia National Park. The Friends of Acadia 
once again provided significant help and leadership in making 
those projects real.
    In the maintenance backlog realm the region in the new 
system of quantifying our resources, we have 6,814 assets which 
are made up of structures, roads, water, waste water systems, 
and the like. That is about 10 percent of the total assets of 
the National Park System. Interestingly enough the actual 
square footage of our buildings is about a third, or 33 
percent, of the total in the system. While the west can brag 
about its acres, we can brag about our structures.
    The region has completed a comprehensive condition 
assessment of 64 of those 75 parts. We can't go on without 
noting that many of these resources like this building, like 
buildings at all of our historic parks, as well as the natural 
resource parks, are priceless and irreplaceable. Ongoing 
maintenance is critical to their preservation.
    Between 2002 and 2005 in the various fund sources we 
dedicated about $120 million toward the backlog maintenance in 
this region. I would just add parenthetically that the system 
that we were working with adds up about $756 million backlog or 
ongoing maintenance projects in this region. It is a very fluid 
system with numbers being added and adjusted on a daily basis. 
In a snapshot taken a couple of weeks ago, it looked like about 
$756 million and that looked like about 13 percent of the 
services total.
    Maintenance projects are also preservation projects and the 
testimony lists various projects, at Marsh-Billings, at New 
Bedford Whaling National Historic Park, at Frederick Law 
Olmsted, a new project just underway and the park is closed for 
this purpose, to rehabilitate the building and provide 
necessary HVAC and other critical needs in that park. Again, 
back to Acadia more than $22 million have been dedicated to 
park maintenance projects over the last 5 years.
    In your instructions on this hearing you mentioned Homeland 
Security. I would point out that since 2001 the service has 
been provided $11 million in operating base and line item 
construction projects directed toward enhancing the security 
and the protection of the resources of the icon parks as well 
as the visitors. In 2003 Boston Historical Park received a 
permanent base operating price of $1.2 million for enhanced 
security and $3.7 million for emergency preparedness as well.
    I would note also that Federal Hall in New York received 
$16 million in the aftermath of September 11th itself. Federal 
Hall on Wall Street is just a few short blocks away from the 
World Trade Center site and it received extensive damage at 
that time.
    The region is also a very successful participant in the 
Federal Lands Highway Program and the Alternate Transportation 
Program. We received approximately $10 million annually. Again, 
our premiere example of that is the Island Explorer at Acadia 
but other parks are benefiting from that program as well.
    In the sense of our initiatives and management and just 
general park management we have been developing over the years 
various tools to try to get us more informed and increase our 
ability to make better decisions. One is the budget cost 
project tool. Actually, that is a projection tool. It is a 
system that is based on past averages and trends, and the 
current situation in terms of appropriations, so we can model 
various scenarios into the future.
    What is critical here obviously is the percent of our park 
base that is dedicated to payroll versus other costs. When you 
have a park that has a high percentage of payroll, which many, 
if not all, of our parks do, and you increase the payroll cost 
against a more-or-less fixed budget bottom line, you quickly 
put the park in peril and you quickly provide money for 
salaries but you have a few dollars left to maintain the 
bathrooms, let alone buy the paper towels.
    This new facility management software system is the system 
that is allowing us to collect information about all our 
assets. We rank those assets in terms of priority, in terms of 
park mission, and we rank those assets in terms of their 
condition so that allows us in a very park-wide, region-wide, 
and service-wide way to get a picture of what the condition of 
our parks are across the board on a relatively even playing 
field, which has been very important.
    In the past it has been the art of the author in terms of 
the funding proposals that has dictated some decisions. This 
still has not opportunity but it does allow us to level the 
playing field quite a bit.
    And this CORE Operations Analysis which is just getting 
underway in the Service is parallel to the Facility Management 
System, an attempt to try to get on an even playing field with 
what the operational requirements of each of the individual 
parks are.
    In line with OMB Circular A-76 we are also working toward 
the Preliminary Planning Efforts at the national parks of New 
York Harbor which is Gateway National Recreation Area, Statue 
of Liberty, and Ellis Island, Manhattan Sites, and Governor's 
Island National Monument. These parks have completed the work 
performance statement for facility and maintenance functions 
and are currently developing their most efficient organization. 
As you know, under that direction we then look at comparables 
in the private sector as to what the most efficient way to do 
our business is. Just now beginning in Boston National 
Historical Park is the Preliminary Planning Effort as well.
    Mr. Chairman, this concludes my formal comments. Again, I 
want to express our appreciation for your leadership in 
undertaking this effort and having these hearings across the 
country. We look forward to answering your questions and we 
look forward to your deliberations as they go forward through 
the summer and fall. Thank you.
    [The prepared statement of Mr. McIntosh follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. Thank you very much for your comprehensive 
testimony. Let me start with a couple of medium broad budget 
questions. So Boston Harbor Island is now a national recreation 
area? I think when I was here it was a national park area.
    Mr. McIntosh. The legislative title is national recreation 
area. We have locally adopted the formal but unofficial 
legislative title as a national park area.
    Mr. Souder. When that was added to this system, did you get 
an increase in regional funds?
    Mr. McIntosh. The park got a modest increase in their 
establishment funds for the park base operations. The region 
itself did not get an increase because this park or any other 
park is added to the system.
    Mr. Souder. So, for example, when the Charleston Harbor 
gets added--what I am trying to figure out is because we 
certainly having spent a number of years on the Park 
Subcommittee and on the Resources Committee watching the budget 
process, when the bills go through usually by the time they get 
there under suspension with minimal amendments we never have a 
discussion of is this going to add to the 3 percent increase 
that the national parks are getting. But I am wondering 
internally how you handle that then. Do you get a regional 
budget with occasional earmarks coming out of Congress and do 
funds get shifted between regions or do you have to manage this 
within your region?
    Mr. McIntosh. There is no one answer for all situations but 
generally speaking we manage within the region. There is no 
contract between the Authorizing Committee and the 
Appropriations Committee with respect to a new park and the 
guaranteed allocation of funds, line item of funds for that 
particular park.
    Sometimes it comes simultaneously. Sometimes it comes a 
year or 2 years later. In the meantime the mobilization, the 
implementation of that park, the activation of that park, is 
begged, borrowed, and stolen from either the regional office or 
neighboring parks that might support with staff.
    Governor's Island in New York is a good example. That 
monument was declared. No funds were provided. It was declared 
by Presidential proclamation and no funds were provided. For 
the first couple of years within the New York area the regional 
office provided staff as well as the parks loaned staff to get 
that park mobilized.
    Mr. Souder. Having been around this for some time, and 
possibly answering this question somewhat at your own peril, 
this is not a new debate but sitting on my side and being very 
interested, I don't even know how you get information to make 
an intelligent decision because under the current 
administration every time there is a new park they oppose it.
    Under the previous administration I don't think they ever 
opposed one. We never get told when the park is coming up. It 
usually divides on whether you favor spending more money or 
less money. There is no kind of nuance answer. Boston Harbor 
Park area is beautiful. We don't own land there at the Federal 
Government but it has several different State parks and local 
things in it, the first lighthouse and all sorts of great 
sites.
    But there is no question there was a political motivation 
in developing that would be the classic of Mr. Ridenour's park 
barreling to some degree. And Charleston Naval Harbor openly 
says it. While we were worried the Naval Yard was going to be 
closed, it doesn't mean it is not an important part of history 
but I am trying to figure out the value process.
    Now, what we are not doing in the tradeoff process here 
because I basically believe that if a historic site falls down, 
you will never get it back. Therefore, I am not against new 
additions but we are not knowing what tradeoffs we are making 
when we do new additions.
    Do they ask you as regional director and say, because, one 
thing, if a Congressman was told in that area or in a region, 
``If we are going to get a new park in our area, here is what 
we have been looking at,'' do you do any forward thinking in 
the sense of here are sites that would be nice to have in the 
system?
    We do analysis and, finally, we are doing much better 
analysis of here are the sites that are most critical to keep 
from falling down. Here is where we need to do the investment. 
We are doing analysis internally. I know there are risks of 
doing external analysis because then you could get speculation 
on the property, other groups thinking, ``The Federal 
Government is going to take it over. I don't have to take care 
of it anymore.'' That type of risk, but do you do that kind of 
analysis that would ever come up and say, ``Well, look, if you 
are going to do this, here is what we really need here.''
    Mr. McIntosh. We do part of what you are suggesting. There 
is no analysis currently where the Park Service looks at the 
landscape and for whatever the values and for whatever the 
reason says we should be considering this area or that area for 
potential inclusion.
    As you know, the Thomas Bill of the mid 1990's, the Omnibus 
Parks Management Act provided that all studies or all 
inclusions in the National Park System are subject to what is 
called a special resource study and that study is aimed to do 
several things. One is to determine the national significance 
of the area. Second, determine the feasibility of that.
    Basically that is an examination of the potential of that 
site in terms of the resource. Is there integrity there? Is 
there the capability to provide public programs. And the 
suitability in the sense of is it necessary or appropriate for 
the National Park Service to take over the administration of 
this site.
    Many sites that we are asked to consider are already State 
properties or owned by nonprofits and some obviously are 
private properties. In doing that we are also required to 
provide budget information as to what the land acquisition, if 
necessary, would cost, and also what the operating cost over 
the first 5 years, let us say, what impact that would have in 
terms of the Park Service budget.
    That information is done with NEPA compliance. Therefore, 
those reports are provided to the public for public comment 
prior to the finalization. The Thomas Bill provides that the 
director must make a professional finding of the service's 
professional determination of the significance suitability, and 
feasibility of that site and the Secretary would make a 
recommendation when she transmits that report to the Congress.
    Mr. Souder. So what you are basically saying is that it is 
a reactive process primarily to some degree designed----
    Mr. McIntosh. To provide a very general summary, yes. I 
would say it is a reactive process.
    Mr. Souder [continuing]. Designed pretty much by my party 
to say, ``Look, we have concerns about whether there has been a 
systematic review of the process.'' It was an attempt to get at 
what I was saying but it is still a reactive process. In other 
words, a Member of Congress thinks of something he wants in his 
district which may be motivated by everything from 
environmental to economic shutdown to a variety of different 
questions which may not be related to its historic 
significance, national significance, risk of being lost.
    Presumably a good politician is going to listen to some of 
those interests in his area, too, but often the kind of 
national and systematic interest aren't the same as local 
driving issues such as this is good for business, for jobs, or 
other types of things which means it would be pretty cheap to 
criticize pork barreling if there is no other alternative to 
pork barreling.
    In other words, its the only way to add things to the 
system. Furthermore, we have spent at least a year trying to 
get from the National Park Service the list of how many of 
these studies for national heritage areas that were actually 
out there. We were passing heritage areas through the Resources 
Committee like crazy.
    Finally, when we got the data, it was, I believe, 32. This 
is a couple of years old. Something like 30 or 32 studies of 
which they could do eight a year with the complicated process 
you were doing, particularly under the budget crunch which 
means we are already backlogged 4 to 5 years.
    Well, since congressional terms are 2 years, the whole 
process you just said is, of course, subject to you pass it. If 
you want to pass a heritage area on the floor and fund it, 
basically you waive the rule and you don't require the study. 
If you waive the rule, then the law doesn't apply.
    Furthermore, the appropriators on the Appropriations 
Committee often will fund their heritage area whether or not it 
has been waived on the authorizing side or in the Park Service. 
I can assure you because I thought I was going to get my head 
chopped off because it was one I was questioning in Atlanta 
that had a series of things that were of local and State 
significance but I didn't see a national significance but I got 
caught up in, well, we did a trade.
    To get this one we did this one and this is supposed to 
move. It moved through and then the funding moved through. What 
I am trying to figure out is how do we get control or, at 
least, some kind of a substantive input into saying, if we say, 
``We are short of sites that relate to Africa American 
heritage. We are short of sites that relate to Asian heritage, 
Hispanic heritage, religious heritage. Oh, here are five sites 
in the United States that are coming up that are critical to 
our understanding of this period of American Revolution that 
may be lost forever.''
    Is there any kind of that discussion in the National Park 
Service here? You are at the cradle of the American revolution 
in discussing what sites may be--these groups are floundering 
economically and they wind up saying that the national system 
may be lost. I am just wondering whether at least there is--I 
am sure Friends groups are doing that to some degree. For 
example, in Civil War battlefields there are really strong 
lobby groups.
    Mr. McIntosh. I would in summary answer that right now 
there is not that type of discussion. The focus and priority is 
to take care of what we have and there are certainly 
significant needs there. There have been in the past attempts 
to try to undertake a comprehensive review and make a statement 
as to what it would take to complete the National Park System.
    I think that, too, is challenged in the sense that if we 
did that study in the 1970's things that we were thinking of 
then have elapsed and other equally important but overlooked 
sites, particularly in the Historic Preservation and culture 
resource side of the shop.
    Mr. Souder. Especially since we all know history stopped 
in, what, 1958? Now, let us move more specifically into how the 
budget is impacting your region. You said you had an increase 
in Homeland Security funds. Did that cover all the additional 
cost on Homeland Security?
    Mr. McIntosh. If I understand the question, that money was 
dedicated to the ``icon parks'' which in this region is 
Independence Hall, the Liberty Bell in Philadelphia, the Statue 
of Liberty in New York, and the Charleston Navy Yard which is 
the host port for the U.S.S. Constitution which is actually an 
active ship in the Navy.
    Mr. Souder. And did the money that came in, did you have to 
move rangers that were doing other things into Homeland 
Security protection, bring people from other parks, certain 
icon parks in your region, or did the additional funding 
increase cover those costs of Homeland Security?
    Mr. McIntosh. The initial response was we begged, borrowed, 
and stole rangers from all over the service to go to the icon 
parks. Since then with this amount of funding we have been 
basically able to level the playing field and provide through 
the three parks the operational needs.
    Mr. Souder. So the rangers providing other protection have 
not been dramatically impacted?
    Mr. McIntosh. Certainly less. Now if you go to Independence 
you will see that the law enforcement rangers are at the 
minimum and security guards, contract guards, are providing the 
lion's share of the surveillance of people processing through 
to see the Liberty Bell and Constitution Hall.
    Mr. Souder. You said contract people are providing it?
    Mr. McIntosh. That is correct.
    Mr. Souder. And where did that money come from?
    Mr. McIntosh. That came out of this fund source.
    Mr. Souder. I think you said you were getting--it can be 
New England specific but if it is easier to do it by region. If 
you get, let us say, a 3 percent increase, as a practical 
matter roughly on an annual basis what is your fundamental 
payroll pressure increase?
    In other words, payroll pressure isn't just salary. Payroll 
pressure would be pension obligations, healthcare, when you 
have a given employee. My presumption is if you are getting a 3 
percent increase, you are having a declining payroll, absolute 
number of people because the fundamental costs are increasing 
faster than 3 percent.
    Mr. McIntosh. It all depends on what the legislative pay 
raise is and what the appropriated amounts for the park are. 
But if those two aren't equal, then you are looking at an 
immediate decline. As I said, also there are other fixed cost 
impacts in the budget that don't decline, or can't decline and, 
therefore, if the increase only takes care of the payroll, then 
your other fixed-cost increases are impinging on the park 
operating budget as well.
    Mr. Souder. Because we are trying to sort through, to the 
degree we can do the regional hearings, and kind of get some of 
the basic information at some point, we will be asking for 
systematic information out of the National Park Service 
headquarters. But if you are devoting funds to reducing the 
backlog and you have 3 percent increase, which just assuming 
you didn't get any new parks or any new facilities, but if you 
get a 3 percent increase and you are trying to increase your 
backlog reduction, 3 percent increase almost covers inflation.
    Some years it would and some years it wouldn't. Nobody's 
healthcare cost are going up at 3 percent and part of the 
solution has been contracting out or using part-time people. 
Would you agree you are less likely to add full-time employees 
right now?
    Mr. McIntosh. Well, yes. I mean, our ability to hire new 
staff is certainly curtailed--permanent staff. Our ability to 
hire seasonal staff is curtailed. I think as you look at the 
budget framework as the administration presents it, you can see 
that the emphasis is on this backlog issue, the ongoing 
maintenance at the expense of parks having the benefit of the 
capacity of their budgets in the decades past.
    Mr. Souder. Do you see in these budget operations as you 
look at the Government pension obligations, the healthcare 
cost? Let me ask this question. When somebody retires in your 
region, do you have the ability to replace them if they are a 
full-time employee?
    Mr. McIntosh. Not one for one, no.
    Mr. Souder. Would you say you are doing two-thirds to one? 
I am asking a really broad question.
    Mr. McIntosh. I don't have a real good framework to answer 
that with so I can't.
    Mr. Souder. When we get the individual data that is exactly 
what we will be looking at to see is how much, in fact, we are 
reducing. The Park Service is probably the most contracted out 
agency already in the United States. We can probably contract 
out a little bit more but pretty soon you lose your ability to 
have a system-wide control or system-wide definition if 
everything is contracted out. Going to part-time has pros and 
cons, particularly when you are in a place where it hasn't 
snowed in 6 months. That may make more sense but I doubt if--
while your visitation, I am sure, in this region is higher in 
the summer, it isn't the dramatic changes you see out west. How 
much would you say is seasonable in the Boston region?
    Mr. McIntosh. Can you answer that for Lowell?
    Mr. Creasey. Well, it is very seasonable for most of us, I 
would suggest, but it levels out if you include the educational 
institutions coming to the national parks throughout New 
England. I think many of us are very aggressive in working with 
the local school systems to make sure that we service that 
population as well. It is seasonable, yes.
    Mr. Souder. So sites like here in the Boston area, Man of 
Defiance. Clearly Katie would be more seasonable but in the 
immediate area here you would have a summer-driven tourist 
traffic but then education groups would pick up the difference. 
What about conventions? Is there much of a spin-off from that?
    Mr. Creasey. I think many of the parks work very closely 
with the tourism industry and the conventioneers, I think, 
contribute throughout the season. I am not sure it is limited 
to just one particular season but my sense is that we work 
closely with the Massachusetts Office of Travel and Tourism as 
well as the Boston Area for tourism development. Obviously the 
national parks are a major thrust in terms of their marketing 
campaign so I would say we get quite a bit of tourists.
    Mr. Souder. Some of these type of things will be dealt with 
by using seasonable as well as contracted out. But in one area 
if you are dealing with backlog and you are dealing with 
potentially replacing retired full-time employees with 
seasonals or contracted out people, would you say 
interpretation was hardest hit?
    Mr. McIntosh. The traditional seasonality of that effort 
tends to be limited in terms of the permanent staff and 
expanded in the high seasons. Therefore, that is where the 
flexibility is in your budget. Therefore, seasonable 
maintenance, seasonable interpretation are the areas where you 
would have the opportunity to make your adjustment.
    Mr. Souder. What would the other hardest hit areas be? 
Would it be historic and archeological research, biological 
research other than interpretation?
    Mr. McIntosh. We have benefited significantly almost in the 
order of $100 million over the last several years with the 
Natural Resource Challenge Program. That is put in place a 
system-wide effort with inventory and monitoring of the 
resources in the park. There is a good head of steam in that 
area.
    I think in this region we have with the amount of historic 
resources that we have, the structures, the collections, and 
archeological sites and so on, that we are challenged to keep 
abreast in terms of the research mode in terms of understanding 
the resources in the park, even though they have been in the 
system considerable periods of time.
    Mr. Souder. When you get funds from this Resources 
Challenge Program and from Saving America's Treasures, I should 
know the answer to this question but I don't off the top of my 
head but I believe on some of these they are still within the 
Park Service's regular budget. Isn't that correct? They are 
just reshuffled?
    Mr. McIntosh. Both of them. That is correct, yes.
    Mr. Souder. Then what I am trying to sort through because 
when we lay this over the top of each other, if you are getting 
$100 million in the resources challenge program and the Save 
America's Treasures Program, where did that money come from 
because the total net to the Park Service is only up 3 percent 
and the payroll pressures are far--I have seen some tentative 
collapsed numbers that suggest if you go out 10 years just the 
payroll drowns the system given the current budget.
    Mr. McIntosh. Given past trends and current projections, 
the out years are very, very challenging. If I may just circle 
back a bit on the seasonability question. I think what is 
important to understand also, and we have observed this, and 
probably caused by many different sectors but what sort of 
traditionally was the season, Memorial Day to Labor Day, is 
nowhere close to what the season is now. With the mobility and 
the retirement population being so active enjoying our national 
parks from the break of ice in the north until after Columbus 
Day in the fall the pressure is on the parks. In a sense what 
used to be that 3-month window of pressure is now expanded 
maybe to 6 or more months depending on where the park is in the 
region. Certainly in the south in the Civil War parks in 
Virginia, parks in West Virginia and so on, the pressure is 
largely year round.
    Mr. Souder. Let me pursue a slightly different angle. Let 
me ask you do you believe that reducing--you referred in the 
backlog to also cyclical maintenance. Do you believe that in 
concentrating on the backlog other things aren't being done? I 
mean, when you look at this money, if you see this pressure on 
payroll and you see this attempt, which I believe support 
trying to address a backlog, what I believe is nobody has tried 
to reconcile these different pressures.
    We are trying to put in some of these special funds. We are 
trying to address the backlog and we have this pressure on 
payroll. Where did the funds come from especially if we have 
added, like in this area, two major additions to the system, 
where did the money come out of and is that leaving, for lack 
of a better word, a new frontlong or something of things that 
are developing underneath that haven't been taken care of.
    Then are we really reducing the backlog or reducing a 
static backlog which is not getting the normal cyclical 
maintenance things and other things have been added to the park 
are they then being added--maybe one of the questions is what 
defines backlog? Is it a static list that we picked a year or 
whenever you get behind add it to the backlog and do we, in 
effect, ever get that addressed?
    Mr. McIntosh. I would hate to count the hours that people 
have talked about that. Not even debated it, just talked about 
how to define the backlog. Obviously a backlog project today 
that gets funding tomorrow and that work is completed, then 
that comes off the backlog list so you are going to see this 
cycle of projects in any given park go on and off for the same 
thing such as the example I gave earlier of the work here at 
Faneuil Hall.
    The day after that project was completed in the early 
1990's it wasn't on the backlog list. Now 15 years later, or 
however long it was on there before that, I am not sure but it 
comes back on as the needs become apparent. The new facility 
management system will better enable us to be able to track 
exactly what is in the system and what the needs are.
    What we have never really had before in that system that 
this system will provide is a way to evaluate the project 
against the importance of the structure if it is a historic 
structure. Some historic structures in the mission of that 
particular park are more important than others and having to 
make those tradeoffs is an important--this will give us the 
important tools to do that.
    Mr. Souder. But you don't have that yet where you could 
tell me where we reduced our A backlog by 30 percent or our B 
backlog by 20 percent and our C backlog by 10?
    Mr. McIntosh. Well, I think you could do it on an 
individual park on an individual moment in time but the numbers 
continuously roll. The only way to work that system in terms of 
making statements of what the condition is, the conditions 
change constantly. It has to be a snapshot as of that day.
    Mr. Souder. Not that the Department of Interior is known 
for wonderful computers but in this day and age if it is 
available by individual park, it seems like a very short 
software program to be able to----
    Mr. McIntosh. Roll it up. Yes.
    Mr. Souder. Let me move to a slightly--I was interested a 
number of years ago, I believe it was the National Trust, talk 
about a problem at the Adams site. I believe it was there. It 
has been a while since I have dealt with this.
    I believe their china collection or silver service was 
going to be split off or auctioned off by the private group 
that was managing the site because that led to a discussion 
after whether we should have some sort of seed fund like we 
have for properties for collection items like that could be 
leveraged with the private sector to try to purchase things 
before they get up in market and then we would spend the next 
30 years trying to put the collection back together. What has 
happened with the Adams site and how do you look at critical 
collections that are often in private foundation hands that 
could all of a sudden have financial pressures or whatever?
    Mr. McIntosh. Well, again, there is no one answer. 
Individual parks have authority to purchase collections or not. 
In the Adams situation, and my memory doesn't recall what the 
final resolution was but in the Adams situation the silver 
collection I think you are referring to belonged to the Adams' 
Church, the Parish Church.
    Mr. Souder. They donated it to them. The Adams family, I 
think, had donated it to the church.
    Mr. McIntosh. Right. And the question at the time was the 
church was in serious financial straights and was trying to 
figure out a way to raise money. There was an effort made to 
purchase that collection from the church but I cannot answer. 
We can provide you the answer but I don't have off the top of 
my head the ultimate resolution.
    Mr. Souder. How much of your collections are in storage, do 
you know, of historic collections in this region?
    Mr. McIntosh. I don't know that answer specifically but I 
think it is a general standard in the museum industry that 
maybe 3 to 5 percent of your collections are an exhibit and the 
rest are in curation or in storage. I think that generally is 
true of any of our parks.
    Mr. Souder. From what I have seen I have not looked at this 
issue in northeast. I know a number of years ago we dealt with 
it in Gettysburg because clearly we had inadequate and safe 
storage of the old muskets. Then we paid $1 million to rehab 
and then they go back down in a musky cellar and then we paid 
to rehab them again. Just a rather short-term budget strategy.
    How is it here in the New England area as far as storage 
capability of only 3 to 5 percent is available for public 
display? Are these things safe? At Valley Forge I know the 
Benninghoff collection had all this--I mean, one time they 
showed me original journals that had never been preserved or 
copied that were down in this basement. How are you going to 
get a Valley Forge journal back? What is the status of the 
collection preservation?
    Mr. McIntosh. The service started in either the late 1980's 
or early 1990's, the museum collection program, which provided 
a significant chunk of money across the country to do the 
cataloging. And parallel to that as we grew to understand what 
was in our collections, unfortunately because they were in many 
cases heirlooms of the family that donated the home or sold the 
home to the National Park Service, they weren't kept then under 
professional standards and we didn't immediately have the 
resources or the wherewithal to provide that.
    Many of these collections stayed in the Park Service's 
facilities, historic homes or otherwise, for many years before 
we got around to collecting or curating them. Since then we 
have made significant strides, but to say that the issues are 
all resolved and we don't have significant issues in front of 
us would not be true.
    At Longfellow we made a significant investment there. We 
provided over the last 4 or 5 years better temperature and 
humidity controls within the building. That takes care of the 
collection pieces that are on exhibit in the house itself as 
well as those that are in the storage. Again, we are limited by 
the capabilities of the site as well.
    I mean, there is the Longfellow House and carriage house. 
No other significant built structures are on that site and no 
wherewithal to go elsewhere. We now have in the basement 
provided professional quality storage facilities, albeit still 
in the basement. Several of the sites now are starting to use 
offsite storage in professional storage facilities in pay the 
fee, the rent, so to speak, to do that.
    Mr. Souder. Is there any program inside the National Park 
Service that looks at historical documents and museum 
collections like you are doing on buildings where you are going 
to be able to--or on backlog where you say, ``Here is an A, B, 
C, D priority,'' or is it almost purely random at this point?
    Mr. McIntosh. No. I think when the park has the good 
fortune to benefit from the collections management program, 
objects and archival material are treated equally and there is 
an assessment made. We develop what is called a statement of 
collection which defines what should be in the park's 
collection or what should not deaccession many of those things 
that should be not so that we don't have to have the 
responsibility for that.
    At Olmsted over the last--it has just been completed over 
the last 15 years all the original drawings and archival 
material from the Olmsted site which were in deplorable 
conditions in the storage vaults that the family and the 
business had for that purpose we were able to set up a paper 
conservation lab in some space in Springfield 90 miles away. We 
transported all of that collection, various pieces at various 
times, to Springfield.
    We had a staff of two or three people, professional 
curators, archival curators, conservationist working on that 
collection who have now fully conserved that collection and 
brought it back to the site. Given the fact that the site is 
closed and under major renovation, those are now being stored 
offsite.
    Mr. Souder. In something like the Olmsted collection is the 
information accessible or shared such that if you make a 
decision, if these things are relevant to teaching this site, 
that you have these materials which may be priority D but may 
actually be the biggest single original document on a park you 
designed in some other city who may have an interest in not 
having it be buried in a museum somewhere where it may or may 
not be protected or may or may not be seen as critical to that 
site that it could be transferred?
    I remember just working on the Northwest Territory stuff 
and I was trying to get the Library of Congress to do a thing 
on the Northwest Territory and I said I thought because I had 
been to a number of sites, Ft. Megs and others, and I had seen 
things like property of the U.S. Congress on a copy of a map 
that you must have a fair amount of documents. They said, ``We 
have never analyzed anything that we have had on the Northwest 
Territory.''
    One guy piped up and said, ``We have William Henry Harrison 
papers. Would that be a help?'' ``Yeah, that would be a good 
start.'' ``We have Anthony Wayne's papers. Would that be a 
help?'' ``Yeah, that would be a start.'' If they had a couple 
of those papers in the critical areas of the midwest, it would 
be a huge thing and it would be a major preservation project 
but it would be low tier.
    The Library of Congress, of course, has the world's biggest 
attic along with the Smithsonian. The National Park Service has 
these incredible collections of art, of original documents. 
Often you interpret a site at a given year or era as it should 
be. I am wondering do we have any way of systematically looking 
at this and sharing because if you catalog and it is on a 
computer, then people can access and say, ``Hey, what about 
that piece?''
    If we don't have any dollars for cataloging or doing the 
research or identifying and getting the stuff more than in a 
person who may be retiring as head, but into a systematic 
analysis we can't cross fertilize.
    Mr. McIntosh. Well, the museum collection program addresses 
that need. We are far from complete in the service-wide efforts 
there. In places like Longfellow and places like Olmsted where 
that project, as I said, in terms of the cataloging as well as 
the conservation of the documents took maybe 15 years, that 
information is available now and is used extensively by 
professional as well as academic researchers who are studying 
Olmsted or, in many cases, a private firm so we have been 
commissioned to rehabilitate an Olmsted landscape at some 
private facility that the firm designed to come and use that 
resource.
    Mr. Souder. I need to go to the second panel but let me 
followup a little bit on that with Lowell specifically, the 
superintendent. I am looking forward to going there tomorrow 
because I have not been there before. It is unusual in the 
sense that it is an old industrial community and in trying to 
interpret some of our economic history, how do you define what 
you have there? Do you also look at what you don't have that 
you might need to add? This is a whole other--it is kind of 
interesting because we don't do a lot of interpretation of our 
economic history in the United States.
    Mr. Creasey. That is a good question. We have about 700,000 
objects of which we have cataloged about 95 percent of our 
collection of which it is all online, as Mac said. I think the 
cataloging system and what we have got with the museum services 
when fully loaded will be a tremendous asset for the American 
people and for researchers and scholars. I feel we are in 
pretty good shape at Lowell in terms of our collections and our 
cataloging.
    Five percent, to be quite honest, are materials that are 
not of higher value than things like the locks and canal 
papers, engineer drawings, architectural drawings, which are 
quite wonderful of how Lowell came about in terms of this 
economic engine for New England and the country.
    I have been at Lowell for 6 months so I am still a study on 
this but my sense was that when Lowell was established in the 
1970's we did have a collections strategy of which we went and 
collected items such as the 100 some looms that came from the 
Draper Corp. in Hopedale, MA that powered the mills. We now 
have them currently in our working collection you will see 
tomorrow if you come visit 80 some working looms in the mill 
itself.
    Those kinds of items were collected. We are also fortunate 
to have a strong partner in the American textile museum which 
has a much larger collection, something like five stories of 
industrial artifacts that range from preindustrial all the way 
through modern day technology.
    Mr. Souder. If I can ask, Mr. McIntosh, just because you 
have been involved in the Park Service for some time your 
reaction to this. The temporary fee charges are the longest 
temporary fees of probably about anything we have had in the 
system and it is one of the interesting things because we are 
trying to make them permanent.
    It is amazing. It shows the support of the National Park 
System. It shows why people would probably support some form of 
a check off where they can give donations and that sort of 
thing because we have had almost no resistance in spite of all 
the people who said we were going to have resistance to these 
different fees because, as you know, they are going to the park 
and they see how they are being used.
    People generally speaking support the fees. One of the 
challenges as these fees go up is how to deal and a concern 
about how it is going to impact access to the parks by lower-
income groups. I have had sign-off support from the 
appropriations and the authorizers if we could figure out how 
to do it.
    In an earlier parks trip this summer a gentleman who had 
worked as a concessionaire in the Park Service suggested to me 
that one possibility would be to have it be on the IRS form 
that, ``If your income falls under a fixed amount, whether it 
is $30,000 or $35,000, and you want a national parks' pass, 
check the box and we will send it to you.'' The question is how 
do we identify? You can't check and you can't ask them to show 
their IRS return at the gate or the building.
    You don't want to say, ``Are you kids on reduced lunch?'' 
It would be pretty tough to commit fraud with the IRS because 
they have your income there. The question is how many people 
would actually request that pass or may never use it. In 
Government terms it is a cipher in the budget to print the 
cards. Mailing costs are a little bit higher.
    We could say there may be a way to send a sheet of paper as 
opposed to the pass. I wonder what your reaction is because we 
have been trying to figure this out. I have the support to do 
that. It is a clear challenge as we tackle this issue. Now with 
a constructive suggestion, then I am trying to figure out what 
does that do to your substructure if a whole bunch of people 
are showing up with passes. On the other hand, they may be 
people that wouldn't have visited the park otherwise.
    Mr. McIntosh. That is a very important and complex issue. 
My personal belief is that the IRS and the tax form is for that 
purpose and to complicate it with a lot of things is probably 
not in the best interest of anybody. If that happens, I am sure 
it can be accommodated.
    The ability to provide access to various aspects of the 
population are permissible within our system. There is 
flexibility. The superintendent can have, as museums do, a free 
day or the mornings or various things like that. I think there 
is flexibility on the part of the superintendents that may not 
be always exercised.
    Then there is the question of not just access to the gate, 
it is access to the park, to get to the park, which is also, I 
think, an important and complicated issue. Generally one of the 
reasons--I mean, how to collect fees at places like Gateway 
where you can come in off city streets and so on. I think it is 
one of the reasons why the superintendents in those situations 
don't even think about it because it is so--the park itself is 
so accessible to such a diverse community that those 
populations and other populations are accommodated that way as 
well.
    Mr. Souder. They are doing building fees.
    Mr. McIntosh. Say again?
    Mr. Souder. Often there is a fee then to get in the 
different homes. At Independence Park, for example, you have a 
$2 fee for this house. Even though you can get a Parks pass to 
get in, you do it by building.
    Mr. McIntosh. That is true. That is a double-edged sword 
for us because we want to make it as successful as we can to 
everybody. On the other hand, as the numbers show, the 
contributions to the fee program are significant in terms of 
our ability to maintain our resources to operate the parks.
    Mr. Souder. I have a consistent position and that is I 
believe in simplifying the tax form except when I want to 
complicate it. Thank you for your testimony.
    If the second panel could come forth. If you want to submit 
anything else for the record, please do so.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    I thank you each for coming and we will start with Mr. 
Roger Kennedy, former head of the National Park Service, 
National Council chairman for the National Parks Conservation 
Association. You have been tremendous in helping coordinate all 
these hearings. We thank you for your years of leadership and 
authorship and stewardship.

    STATEMENTS OF ROGER KENNEDY, NATIONAL COUNCIL CHAIRMAN, 
  NATIONAL PARKS CONSERVATION ASSOCIATION; MARILYN FENOLLOSA, 
NATIONAL TRUST FOR HISTORIC PRESERVATION; KEN OLSON, PRESIDENT, 
FRIENDS OF ACADIA NATIONAL PARK; AND LT. JOHN McCAULEY, MUSEUM 
      CURATOR, ANCIENT AND HONORABLE ARTILLERY COMPANY OF 
                         MASSACHUSETTS

                   STATEMENT OF ROGER KENNEDY

    Mr. Kennedy. Thank you, sir. I am Roger Kennedy. I have 
been around the parks for nearly 80 years. I have watched the 
Congress work with the parks for more than 60. Mr. Souder, I 
want to say for the record that no one since the immortal 
Chairman Sidney R. Yeats has given the national parks your kind 
of sustained, intelligent, and informed attention grounded in a 
moral fervor for the national patrimony and for our common 
obligations to our decedents.
    We have to reach back to the progressive era to the 
founding generation nearly a century ago to observe such a 
fortuitous confluence of a national conservation necessity and 
your kind of straightforward, candid, and honest stewardship. I 
want to begin by saying thank you.
    Mr. Souder. Thank you.
    Mr. Kennedy. I would like to file my formal testimony for 
the record and proceed on my own if I may.
    As these hearings have already shown across the Nation the 
accumulated rot in the National Park System, more politely 
known as the maintenance backlog, would by now cost at least 
$4\1/2\ billion to make right. Two-thirds of park roads are 
listed as either poor or fair condition. More than half of the 
bridges on those roads in the parks are classified 
intelligently as deficient.
    The capacity of superintendents to do the job that the 
Congress and the people expect is steadily eroded in the face 
of unfunded mandates and service cost inflation as you have 
already reviewed this morning. Here is how the New England 
parks in particular manifest an unfulfilled need for 
stewardship. This is accumulated over the years. This is 
nothing new but its flagrancy grows. When you deduct, as you 
have noted already this morning, the loss of purchasing power 
for the last 3 years alone in the Acadia's superintendent's 
budget it is down about 10 percent.
    For last year alone unfunded mandates required by Congress 
or pay increases alone were twice as big as the increase in the 
nominal Park budget. I can give you the numbers but that is 
what it amounts to. If you add the general inflation rate to 
the parks' other cost, not just those salary cost and return 
cost, you would add another couple of hundred thousand dollars 
in lost purchasing power to provide service to the public.
    Since the superintendent doesn't have the money to do his 
job, he has to leave important jobs undone, as you have already 
indicated. I want to congratulate my Park Service colleagues 
for reading their scripts with enormous skill. I have had to 
read scripts myself. The glory of being retired is you don't 
have to read anybody's script.
    That superintendent can't fill nine traditionally permanent 
jobs because he can't pay for them. The requirement that law 
enforcement trumps everything else means that everything else 
suffers even more, the education function, conservation. You 
call attention to these functions and you are absolutely right 
in doing so because even they and waste disposals suffer.
    Let me point out that in Acadia last winter the park had to 
close all but 3 of its 12 restrooms during the cross-country 
skiing season. The cross-country skiers were there and the 
restrooms weren't open. Springtime in Acadia. The park has 
staff to cut the grass along its famous hiking and biking road 
only once a year. The grass grows very fast in Acadia. It is 
desperate to grow up there where it is cold and it covers a lot 
of sharp rocks. If you can't cut it more than once a year, 
people are going to suffer.
    At Cape Cod most of the park goes unpatrolled for lack of 
rangers. The park needs at least 10 more seasonal law 
enforcement personnel to do its job which it used to have but 
it needs that to do its job.
    At the Longfellow House in Cambridge a $400,000 annual 
funding shortfall prevents the park from filling the key 
maintenance and curatorial position. We could talk for a long 
time. I was a museum director for nearly 15 years at the 
Smithsonian. The problems that you have pointed out this 
morning, my colleagues in the Park Service have done their very 
best not to complain too loudly about are real. You are right 
and so is the problem of congressional enthusiasm for nifty new 
parks and new ribbon cuttings not coupled to the sustaining of 
the budgets required to do the job. You are absolutely right on 
the money on that.
    Longfellow like Cape Cod has a Friends group but even 
Friends get tired of bailing out the Congress. Friends groups 
are partners. They are not receivers in bankruptcy. The truth 
is that parks are in trouble. The Park Service is in trouble 
and the Congress has for years failed in its trusteeship to the 
American people to take care of our national treasures.
    This is not this administration's and this Congress' only 
problem. They have lots of other problems and they are not 
responsible for the long accumulation. That long accumulation 
is papered over by the kinds of reports you get from the system 
as it is currently operating. You are right in pushing hard. 
Thank you for doing that.
    These kinds of problems that have accumulated over time are 
going to have to be dealt with in this generation or they will 
be impossible for the next generations to deal with. Rot is 
rot. It doesn't go away. You can fuzz the figures but you can't 
pretend that the rot doesn't get worse. That is something that 
directors can't say when they are in office or if they hope for 
further office, but it is true. The problems you are going 
after are there.
    God bless you, Mr. Souder, for trying to be a good trustee. 
Thank you.
    [The prepared statement of Mr. Kennedy follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. Thank you.
    Next is Marilyn Fenollosa, National Trust for Historic 
Preservation. Thank you for coming today.

                 STATEMENT OF MARILYN FENOLLOSA

    Ms. Fenollosa. Good morning. My name is Marilyn Fenollosa 
and I am senior program officer and regional attorney for the 
Northeast Office of the National Trust for Historic 
Preservation. The National Trust for Historic Preservation is a 
private nonprofit membership organization dedicated to saving 
historic places and revitalizing America's communities.
    Recipient of the National Humanities Medal, the National 
Trust was founded in 1949 and provides leadership, education, 
advocacy, and resources to protect the irreplaceable places 
that tell America's stories. Staff at our Washington, DC, 
headquarters, six regional offices, and 26 historic sites work 
with 270,000 members and thousands of preservation groups in 
all 50 States.
    The act of Congress that created the national trust had as 
its purpose to facilitate public participation in the 
preservation of historic American sites, buildings, and objects 
of national significance or interest and it is with that 
purpose that I come before you today.
    The National Park Service has its roots in New England. 
Writing from his home in Brookline, MA, now the Olmsted 
National Historic Site, Frederick Law Olmsted, Jr., crafted the 
words that served as the foundation for legislation 
establishing the Park Service in 1916. That is, ``To conserve 
the scenery and the natural and historic objects and the wild 
life therein and to provide for the enjoyment of the same in 
such manner and by such means as will leave them unimpaired for 
the enjoyment of future generations.''
    Our two organizations have worked hand in hand as a public-
private partnership to preserve the cultural and natural 
resources that are the heritage of our country. Yet, we have 
become increasingly alarmed at the declining capacity of the 
National Park Service to care for the parks in its stewardship 
in New England and, indeed, across the Nation.
    Even as the administrative burdens have increased, Park 
Service staff has decreased due to the erosion of base funding. 
The National Park Service has not had the resources it needs to 
maintain its side of the partnership.
    The fiscal year 2006 budget justifications for the Park 
Service, available on the Service's Web site, notes that the 
cultural resources within its stewardship are threatened by 
inadequate attention to stabilization, maintenance, and repair 
of structures, landscapes, and museum collections; by the 
failure to monitor changes in the resources; by the failure to 
correct improper uses; and by the lack of documentation and 
determination of appropriate treatment strategies.
    Indeed, that report notes that in 2004, and again likely in 
this year, only 45\1/2\ percent of the Park Service's historic 
structures are in good condition. That is less than half. The 
National Trust has assumed a watchdog role in recent years, by 
naming the most compromised national parks to our annual list 
of America's 11 Most Endangered Historic Places.
    This list is intended to bring public attention to 
significant buildings, sites and landscapes that are threatened 
with demolition, deferred maintenance, lack of funding or the 
will to preserve them. In recent years we have listed the 
following sites in the Northeast alone: Independence National 
Park--due to years of inadequate funding and deferred 
maintenance; Ellis Island--due to proposed inappropriate 
development and structural deterioration that threatened dozens 
of the island's historic buildings; Gettysburg National 
Military Park--due to encroaching development on privately held 
acres surrounding the park that threatened to destroy its 
historic character; Governor's Island--due to the uncertainty 
facing this Coast Guard facility, America's oldest continuously 
occupied military post that is now a national park; Valley 
Forge National Historical Park--due to untreated water damage, 
mold and failing roofs at the officers' quarters for 
Washington's army; and, most recently, Minuteman National 
Historical Park--due to lack of planning to alleviate the 
noise, visual intrusions, and vehicular traffic generated by 
commuters flying out of the civilian airport at next-door 
Hanscom field.
    Minuteman is a case in point: this park, the site of the 
first battle of the Revolutionary War and the march and retreat 
of the British soldiers, is arguably one of the most important 
sites of our history and one of the most heavily visited in the 
Northeast. The park serves over 1.2 million visitors every year 
from all parts of the country and indeed the world. Visitors 
come to understand what ordinary citizens did so long ago to 
secure their liberty. Yet, the park has lacked the funding to 
maintain itself as a premier park.
    The park was faced with canceling its seasonal program in 
fiscal year 2005 due to lack of funds but was able to open, at 
a reduced level, due to a last minute congressional 
appropriation. The park's principal visitor center is now 
closed during most of the winter. The hours and programs at the 
Wayside, Nathaniel Hawthorne's house that is within the park 
limits, have been severely reduced. The park's budget only 
permits three full-time interpretive rangers for those 1.3 
million visitors and this will be reduced to two in fiscal year 
2006.
    Park management has rehabilitated many of its historic 
structures for lease to raise operating funds, but lacks the 
funding to run a leasing program. Over the past several years 
there has been a multi-million dollar public investment to 
restore the historic structures and landscapes within the park 
and provide facilities for its visitors, but it has no 
resources to maintain them.
    It is unconscionable that these properties, under the 
stewardship of the U.S. Government, should have to operate 
under these challenges. New England abounds with historic parks 
and sites, and the tourists that come to see them are a 
critical component of our economy. But more important than the 
dollars they leave are the experiences that these visitors take 
back home.
    They learn about the events of our shared history, 
especially the Revolutionary War. They learn of the values that 
were shaped by those events, and they are enriched by their 
memories of what they have seen and heard.
    It is our, and your, responsibility to ensure that our 
national parks continue to exceed their expectations. We cannot 
let our parks fail for lack of adequate funding. As Olmsted 
wrote in 1916, ``We must keep the national parks unimpaired for 
the enjoyment of all future generations.'' It is our moral 
obligation to do so. Thank you.
    [The prepared statement of Ms. Fenollosa:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. Thank you.
    Our next witness is Ken Olson, president of the Friends of 
Acadia National Park in Maine.

                     STATEMENT OF KEN OLSON

    Mr. Olson. Thank you, Congressman Souder, for both holding 
these hearings and for inviting me to speak. I am, as you said, 
Ken Olson and I am president of Friends of Acadia which is a 
3,000 member nonprofit philanthropy that was founded in 1986. 
We raise private funds for Acadia National Park. I also serve 
on the Executive Committee of the National Park Friends 
Alliance which consist of chief executives of about 40 leading 
park philanthropies.
    You have asked me to comment specifically on Park budget 
issues and citizen philanthropy. Friends of Acadia is 
completely independent from Acadia National Park and the 
National Park Service. From 1995 alone we have donated $5.1 
million to the park or to community entities for projects that 
complement Park values.
    Our charitable funding makes possible the employment of 
about 115 seasonable workers, that is about 50 MTEs, in Acadia 
National Park or in the towns. For example, Explorer Bus System 
is a community and Park project and our funding, thanks to L.L. 
Bean, helps run that very successful system.
    Friends of Acadia has also raised $16 million in endowments 
and other invested funds. Each year we grant the interest, 
about 4 percent, to the park. For example, Friends created the 
only endowed trail system in national park history. Same for 
our carriage road endowment and the endowment for the park's 
wheelchair-accessible horse carriages. In all cases the funds 
flow to maintenance forever.
    Without our private dollars these projects could not have 
been initiated. If Friends should for some reason go out of 
business, our remaining assets must be transferred to another 
entity and used for the original purposes.
    Several Acadia summer positions were cut for budget reasons 
in 2004. As Roger Kennedy noted, many restrooms, and most of 
them built quite recently, were closed in winter which is a 
real inconvenience, of course, and does cause sanitation 
problems as well.
    Eleven permanent jobs are vacant now. That number is rising 
from last year. It was about eight and they won't be filled. 
The reason is that the funds that would support those jobs have 
to go to seasonable positions that would otherwise disappear. 
In other words, there is a long-term tradeoff for a very 
profound short-term need.
    Also, about the interpreter programs, within Acadia 
National Park approximately 30 percent of the interpreter 
programs have been cut in recent years and that means that 
about 65,000 people are not getting educational offerings at 
Acadia National Park.
    The President's 2006 budget contains an increase for Park 
Service operations nationwide and we thank him. However, in 
many cases the money won't reach the parks themselves. The 
President and Congress may be unaware of this business snag. I 
would like to say this is not a problem of too much overhead in 
the regional offices. It is not a problem with that.
    Take the 2005 park budget increase for which Congress 
deserves considerable credit. Mandated employee raises, agency 
internal assessments, retirement system changes, terrorism 
alerts and emergency expenditures are consuming the new money 
and that is what is producing the shortfalls.
    It is not clear whether the full Congress understands the 
paradox which is this: it is well intentioned and welcome 
funding increases are nonetheless resulting in service 
reductions at the park level. Pressure is mounting on 
philanthropies to fund operating shortfalls.
    A recent Park Service review in a western national park 
stated that its supporting nonprofit, a group like ours 
``should first and foremost raise funds for the [park] 
superintendent's priorities (which we agree with 100 percent) 
be they a capital improvement project or for operations.''
    It is the operations part that is quite concerning. That is 
because the role of philanthropy is to supplement and not 
replace Federal funds. Our purpose is to add value to national 
parks including for select improvements and programs to bring a 
margin of excellence beyond what Park Service budgets can 
accomplish by themselves. Donors have to be recognized as 
volunteers of money.
    Charities must never subsidize government operating losses. 
Doing so would undermine donor motivation. In other words, 
there would be nonprofit investment going on. At the same time 
there is actual government disinvestment going on. That is a 
real motive killer for people who like to support the national 
parks. It would be like taxing people twice for national parks, 
once on April 15th when we all pay, and then once by the 
charity to offset the lost appropriations.
    Federal operations are a government duty, period. 
Fortunately, Park Service Director Mainella, whose tenure has 
emphasized nonprofit partnerships, vigorously supports that 
philosophy. I have spoken with her at great length about it and 
I know that is how she feels and she has written about it as 
well.
    All agency employees need to understand it. I am happy to 
tell you that our superintendent of Acadia National Park, 
Sheridan Steele, his staff and the Northeast Regional Office do 
understand it and partnering with them is a great professional 
experience.
    David Rockefeller, Jr., whose family's gifts helped 
establish Acadia, and you may recall that this is the first 
national park created east of the Mississippi and is the first 
to have grown full blown from private philanthropy. That family 
is responsible not just for places like Acadia but Grand Teton, 
Virgin Islands. They have a tremendous record of generosity.
    David Rockefeller, Jr., said this when he was chairman of 
the National Park Foundation which you can think of as the 
granddaddy of the Friends organizations and is responsible, in 
a sense, for the whole Park System. He said that Americans 
``need to have assurances that their private dollars will not 
be used to offset public responsibilities . . . I refer to this 
distinction as the `bright line.' ''
    Friends of Acadia urges Congress to apply the proper 
management fix to the cash delivery malfunction. I want to 
emphasize again that this is not a problem of too much overhead 
sitting in the Park System somewhere. To do so, to fix this 
malfunction, would honor the bright line that David 
Rockefeller, Jr., talks about. It would expand charitable 
giving, we believe, and ultimately would reverse park-level 
deficits. Congress can accomplish this by appropriating an 
annual funding margin that exceeds the exactions that will 
otherwise eliminate it.
    Thanks very much and I would be happy to answer questions 
later.
    [The prepared statement of Mr. Olson follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. Thank you.
    Our final witness in this panel is Lt. John McCauley, 
museum curator of the Ancient and Honorable Artillery Company 
of Massachusetts. Thank you for coming today.

               STATEMENT OF LT. JOHN F. McCAULEY

    Lt. McCauley. Good morning, Congressman. My name is John 
McCauley. May I introduce you to the Ancient and Honorable 
Artillery Company of Massachusetts. It is the oldest chartered 
military organization in the western hemisphere.
    Founded in 1637, its mission was to train officers for the 
existing militia. We no longer train officers, and our mission 
today is to preserve the patriotic traditions of America. We 
read the Declaration of Independence from the balcony of the 
Old State House every 4th of July, as it was read by an Ancient 
in 1776.
    On April 19th we march to celebrate the beginning of the 
American Revolution in Lexington. Before we march in Lexington, 
we take time to decorate the graves of those signers of the 
Declaration, buried in the old Granary Burial ground. Every 
year we travel to some country of the world to show the 
American flag and take part in ceremonies with military units 
of other nations. We feel that these programs help to preserve 
the historical culture of this area.
    Our relationship with Faneuil Hall began in 1746, 4 years 
after the opening of the building when we were transferred from 
the Old State House. The Company was allotted space in the 
building, actually it was in the attic, to hold its meetings. 
They did their training on the Boston Common.
    Faneuil Hall has changed many times in its 263 years. It 
went from a small two-story structure with a ground floor 
market place to a building four times its original size. In 
1805 when the building was enlarged, a fourth floor was added 
to accommodate the militia units of Boston. It is on this floor 
that the Company maintains its armory, museum, and 
headquarters.
    In the old building the Company contributed to the 
preservation of it by improving their headquarters, the attic, 
at their own expense. In the new building the Company 
contributed their share of improvements with other militia 
units to improve the fourth floor. By 1880 the Company was the 
sole tenant of the fourth floor and has maintained it ever 
since.
    All funding for the activities, maintenance and 
improvements for the company is derived from the members. An 
annual assessment creates the budgetary needs. No moneys from 
the city of Boston, Commonwealth of Massachusetts or the 
National Park System are given for the support of the Company. 
Monies for demonstration fees, in this case the maintenance of 
the museum and library, come from the Company's budget.
    The only time I can remember when funding from the outside 
came from the national park reimbursement program, it came for 
the expenses incurred when the Company moved from the fourth 
floor to the Coast Guard Base from 1990 to 1992. Total moving 
expenses were $140,000. We were reimbursed $129,000.
    Internal security for the fourth floor was installed in 
1991 during the restoration of the building. It consists of 
four non-recording cameras, three were installed then, the 
Company added a fourth. Two monitors installed, the Company 
added a third. Motion and fire/smoke detectors were put in at 
that time.
    Two employees, the curator and secretary, are there during 
operating hours and no police patrol the fourth floor. Other 
testimony may speak of the rest of the building. We feel that 
the present system is basic and does not fill the needs of 
securing the floor and its contents. At the present time we 
have engaged security analysts to create a better system. The 
present system operates independent of the rest of the 
building. To my knowledge at no time have we been approached by 
the Homeland Security Agency nor any exercises up there at all 
on security.
    The fourth floor, although occupied by the Company, is used 
for many other functions during the year. The city of Boston 
uses it for some of their functions, while other military units 
use it for ceremonies. This multi use creates a need of 
constant upkeep. While employees take care of everyday cleanup, 
the Company hires outside cleaners after many functions. Last 
week we closed for a week to have the floors refurbished. You 
can probably still smell it. All was paid for by the Company.
    The ceiling of the Armory has been a problem since the 
restoration of 1991. The paint peels off. As the present time 
it is under study by the Boston National Park System. With the 
exception of the ceiling all costs for maintenance are absorbed 
by the Company. While this report so far seems to assume we 
operate on an independent basis, our interaction with others 
makes us take an interest in the well being and preservation of 
several sites in the Boston and New england area.
    During the years we have used the streets of Boston, the 
Old State House, the cemeteries in Boston and the churches. 
President John F. Kennedy was a member of our organization, 
therefore, the site of his birth in Brookline holds an interest 
to the Company.
    Every day I meet people from many countries. They marvel at 
the historic sites in Boston and are excited with the idea that 
this area is the place where the American Revolution began. Not 
many places in the world can show the birthplace of liberty. 
Sites such as Bunker Hill, U.S.S. Constitution, Paul Revere are 
a continued source of conversation with the visitors.
    The interest is there. We need both private organizations, 
private citizens and government agencies to pay attention to 
these historical sites and encourage their preservation.
    May I digress for a moment, please, to tell you I have 
served 33 years as a volunteer in the National Park System, 
primarily at Minute Man National Historical Park in Concord, 
and also at Saratoga, Morristown, Moore's Creek and Harper's 
Ferry. Every time I visit a park I learn something. I have also 
noticed the intensity and the dedication of the park employees. 
They take pride in their work but they need the necessary 
tools.
    I have a daughter who is a curator at a historic house and 
a son-in-law who is a preservation specialist within the 
national parks. My whole family was involved. A new danger 
seems to have appeared recently with the decision by the U.S. 
Supreme Court that allows property to be taken for commercial 
purposes. What happens when a historic site is in the way?
    I thank you for the opportunity to speak before this panel 
on behalf of the Ancient and Honorable Artillery Company for 
the preservation of historic sites, not only here in New 
England but all over this great land of ours. Thank you very 
much, sir.
    [The prepared statement of Lt. McCauley follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Souder. Thank you all for your testimony. I would like 
to start with Mr. Kennedy on some broader questions because 
this is starting broad and then we will get narrower as we are 
launching into this kind of parks oversight and behind it 
highlighting the general needs of the Park Service and the 
shortfall of the budget.
    I will ask a couple of technical bureaucratic questions 
first. Do you believe inside the Department of Interior--in my 
experience, formerly as a staffer and now as a Member, that OMB 
tends to drive statements of almost every administration. Do 
you sense that there has been without commenting on 
individuals, it is more systemic? How much is this happening 
everywhere? Is the Park Service less independent inside the 
Department of Interior and Interior more or less independent? I 
don't have a strong sense of how this is working right now.
    Mr. Kennedy. The Park Service as it is currently being 
managed is exceedingly dependent upon the management and the 
objectives of the Department of the Interior. It is not 
functioning as an independent agency that ebbs and flows with 
the degree to which the relationship between the Secretary and 
the Director functions. But at the moment there is a very 
intense interaction downward from the Secretary toward the 
Director.
    That changes over time. There is no question in my view 
that the Congress historically has lacked the kind of precise 
understanding of the Park Service's budgetary functions that 
you are seeking. It needs to re-register the inadequacy of its 
understanding of what the actual consequences on the ground are 
of the money it thinks it is appropriating.
    Mr. Souder. In a broad question again because my experience 
started more from Parks up and now I am trying to figure out 
how the system works. How do you see how the regional directors 
and their flexibility are fitting in the system?
    Mr. Kennedy. Mr. McIntosh's testimony this morning tells 
you quite a lot about that. Here is somebody who really knows 
the system. He has been in the system a long time and the 
missing element in our discussion so far this morning has been 
the importance of the service as well as the system. You have 
to have people who know what they are doing, have accumulated 
that understanding over time, and have a professional skill 
adequate to respond to you.
    The problem, the primary problem of the moment is not, in 
my view, the physical condition of the park. It is the actual 
morale condition and the competency condition of the Service. 
What rewards are there for people to do good, candid work? What 
really is happening to archeology, to history, to natural 
resource protection? How good are the people and how long are 
they staying? What are the incentives to them to stay to learn 
to do their work properly?
    Now, some of those people are necessarily situated in 
regional offices. Some of them, for example, can be deployed 
from time to time to do intensive visitations in parks. But 
many parks, I think particularly of Bandolier, for example, 
their conditions are so--Acadia is another. Their conditions 
are so specific to them, to their ecosystems and to their 
particular kind of archeology and history that they need some 
continuity in those parks of people with those competencies. 
Can't all be done at the regional office however good the 
regional offices may be.
    So there is a combination here of a deplorable task force 
of competent people working in regional offices and, to some 
extent, in the national offices. There needs to be a park 
historian. There needs to be a national park archeologist. But 
there has to be continuity of service in the parks themselves 
because they all are complicated systems naturally, and 
historic. That is what managers are for. Congress is to write 
the checks and to understand what the checks go for. Competent 
managers are what you grow in a system like the Park Service or 
the Marine Corps.
    Mr. Souder. I know this is more system-wide than specific 
here but having a former director who has worked with us for so 
many years gives me a chance to probe some other types of 
questions here. They have a number of training systems to train 
in advance superintendents.
    Clearly, at least historically, there has been both 
movement between parks so that people learn parks sometimes 
within. There has been almost stovepiping between historical 
and natural but anymore there are so many natural features and 
historical parks and many of them with natural features and 
vice versa.
    That has been a little less true and a little less kind of 
looking down the nose at the historical people by the natural 
people. I have seen some parks where superintendents have 
stayed a decade or more. More likely it is somebody who goes up 
and kind of, ``I am a cultural resource person and I am going 
to stay 15 years because I want to be here at this park.'' 
There is some of that.
    One of the dilemmas we have in government, and I am going 
to lay a premise and I want to hear you react to this, that no 
matter how successful we are in pulling out the shortfalls in 
the Park Service, the fact is what I see as a Congressman is 
this isn't just in the Park Service. We have this problem 
everywhere. We have taxpayers who don't even want to have their 
local township tax increased or their library tax increased. 
They don't want to have the State. They don't want to have the 
Federal.
    The bulk of the budget is now under entitlement programs 
that have exceeded 60 percent, the military for all the 
discussion about it, and the supplemental has dropped from what 
used to be in the Kennedy days more like 30 percent down to 
about 8 percent of our budget.
    I met with mental health people earlier this week in my 
home district and they are dying. The juvenile justice people 
are dying. How we deal with Medicaid, with the health cost 
pressures. We can't even begin to meet the--take what is 
happening in Northwest Airlines and Delta and everything in the 
airlines right now trying to do field cost and healthcare cost 
in the private sector and the government has promised more to 
the citizens than the private sector has and we don't have any 
money to do that.
    Clearly we are going to have cost pressures. Every year we 
start out arguing the Parks budget ought to be increased by 
$100 million and we have been able to increase it. In fact, 
there is a lot of jealousy in the system and for all our 
struggles it shows how strongly--I mean, our leadership pleads 
with me not to offer floor amendments on the Park Service 
because everybody will do more.
    Fish and Wildlife is absolutely panicked that in Interior 
there is no top to the Park Service as long as I keep inside 
Interior. They pretty well wipe out the Fish and Wildlife 
Service inside moving over the Park Service. Yet, you have to 
say it has a function, too. We are going to have to do some 
things differently and try to get more money.
    The best way to get more money is to focus like we are 
doing on the centennial, to have a vision that grabs people and 
have people talking about it, to make people aware of the 
shortfalls. Even that said, I see some fundamental things that 
are there. Mr. Olson has raised one on what is going to be the 
role of Friends groups and support groups. Can they do the 
traditional or are they going to have to step in and fill in on 
operational?
    As we contract out and move more toward seasonal and follow 
what the private sector is doing which is a fear of having 
full-time employees because it doesn't give you the flexibility 
and the healthcare and the pension cost. What is the career 
track? Maybe we can have a senior corps but where does the 
junior corps start to get to the senior corps?
    Clearly we are going to have to figure out creative ways 
for interpretation that other museums are adjusting to and how 
in the Park Service--I mean, do you start to convert an agent 
system dependent on mostly human interaction to better computer 
utilization. My lands, we heard about Lowell a minute ago and 
finally getting some things online.
    My daughter was doing in third grade a bat project for 
third graders in Indiana. Carlsbad Caverns has the most bats. 
Got her in touch with the superintendent there to get her some 
bat materials. Now, if you are in New Mexico you might know 
about Carlsbad Caverns and get hooked in. But this is a 
different era here.
    It isn't just trying to have the local school kids walk 
through. We have the most science, the most history. All these 
things are in the Park Service if we can figure out how to get 
it out. How do we do a transition here and should that be part 
of our vision, too? I threw out a bunch of concepts there. We 
need more money but it is not going to be like the old days and 
how do we best get hold of this?
    Mr. Kennedy. To the extent that I can remember, let me see 
if I can run through them in sequence. First of all, with 
respect to the budgetary pressures, what we are doing today is 
to register the importance of the National Park System to you 
and to this audience and to everybody else because the National 
Park System does not have a well-paid body of profiteers 
working in Congress in the corridors because they are making 
money on it.
    This is very different from the defense establishment. It 
is different from the agriculture subsidies. It is different 
from the steel subsidies. It is different from almost every 
other major domestic pressure on the Congress. What we are 
doing is to compensate through citizen involvement for the 
absence of very well-paid lobbying that go after you guys every 
day of the week. That is what we are doing here.
    This is Kenneth Galbraith compensating factors. We are 
providing in a democracy citizen participation. We are trying 
to register with the Congress that there are a lot of people 
who care a lot about this and they will vote. Do they write big 
checks at campaign time? No, they don't. Not in competition 
with the other special interest that are going after you guys. 
That is the first point. This is important what we are doing 
here. This is the life of democracy in a real system where 
money counts.
    Second, with respect to a senior corps we have a--we got 
terribly enthusiastic about the importance of redeployable 
senior citizens--not senior citizens but senior staffers. It 
wouldn't be terrible if some of them were a little older but, 
in any case, senior staffers that you could redeploy as needs 
occurred.
    The problem with that is that they are politically 
vulnerable and they get redeployed to serve the partisan or 
specific purposes of an administration whether it is Republican 
or Democrat. Those people are more vulnerable to redeployment 
for political purposes or exile. If they are a little bit too 
candid those folks can get exiled by an administration as they 
currently are and have been before. That is the problem with 
the redeployable corps that doesn't have a grounding in a 
system that is strong enough to support them.
    Now, the beauty of the National Park System is that it is 
place specific. You can't computerize Independence Hall. You 
can computerize Yellow Stone. It isn't just mountains and water 
falls. It is the specific gritty under-your-feet experience 
that our kids have had and we have with having been at the 
bridge in Concord, having actually been in Yosemite when the 
sun comes up and it plays upon that water fall. That immediacy. 
And the Boston Harbor islands, no, they are not glamorous but, 
by golly, the experience of being there is a powerful 
experience.
    If you have any sense of the history of the evolution of 
the American city, being at the Olmsted site helps you 
understand why the cities that we live in are struggling to be 
better places for people to live in because that is where he 
put his work. Sure, he helped found the National Park System 
but at the end of the day he is about a city that is livable. 
That is what you get at the Olmsted site.
    If you go to Lowell, it is a place in which the evolution 
of the American system in all its grit, in all its tension, in 
all of its antiphonies that are there. It is real. This is a 
slave traders' hall. Faneuil was a slave trader. Is that 
important? You bet it is important. These are places where we 
learn real truths. They are specific places. We can't just do 
that on the Web. They have to be served to provide that 
tactile, that under-the-feet, that immediate sense.
    A lot of Maine has been, and will be, trashed but Acadia is 
magic because it won't be trashed. My argument is there is no 
replacement for a National Park System. If it is not the best 
idea America ever had, it is a real good idea and we are the 
trustees so we have to struggle for it. Every day that you hold 
a hearing 10,000 lobbyists, well paid in a $3,000 suit, are 
working on some other Congressman for something else so thank 
you again.
    Mr. Souder. One of the things it does, too, this hearing, 
basically this date was relatively fixed because of my schedule 
but also I know I talked to Congressman Capuano who wanted to 
be here but he couldn't be here this particular day and 
Congressman Lynch who we have worked with on the steroids as 
well as well as oxycontin and other issues became more aware of 
what we are doing here. He is on the actual full committee that 
this subcommittee is part of.
    And my friend Bill Delahunt, who I have worked with on the 
Adams site, was trying to get me to do this over in Cape Cod. 
You have a process even in the course of doing a hearing to 
talk to the other members in the region and get them aware of 
the things even if they are not here.
    Ms. Fenollosa, you talked about in the national trust a 
very effective program of identifying at-risk sites which is 
emulated. I know Indiana's landworks board, of which I am a 
part, although I haven't been as active as I would like to be, 
I have certainly been supportive and on their board, does a 
similar thing in Indiana.
    My hometown of Fort Wayne does a similar thing. In Fort 
Wayne it is a much emulated approach. One thing your 
organization could do is even expand this more intensely inside 
the Park Service as opposed to just necessarily identifying the 
different parks. Then identify, as you did in your testimony, 
certain specific sites or types of things.
    Do you see any expansion of this because it is a great way 
to capture people's attention. Congressmen like short lists. 
The media likes short lists. I think that program that you 
started has just proliferated and is one of the most effective 
things. I picked up a ``National Geographic Traveller'' 
magazine yesterday at the airport. They did the 55 parks and 
analysis of the deterioration. That is one way to get people's 
attention and rate as well.
    Ms. Fenollosa. In response I would say that the problem is 
one of space and size. As you said, Congressmen like short 
lists. We have decided that we are only going to pick 11 sites 
every year from 50 competing States, all of whom rightly 
believe that their places are the most important ones so we 
have to make choices. I suppose we could list the National Park 
Service as an endangered site which might focus attention.
    Mr. Souder. I was thinking more on the lines of not putting 
it on the national list, but as you work through the regional, 
I don't think national parks because they are national are 
usually thought of in the State and local list.
    If there was an interaction, for example, as a sublist of, 
OK, let us say you have these bigger parks that you have 
mentioned and you had some sub things inside of them, but as 
you look at the top 10 endangered sites in the midwest region, 
then in the national parks in the State of Indiana what are the 
three most endangered historic preservationsites in those parks 
so for Indiana Dunes boyhood site if there are any original 
sites there, and the Vincent site in Indiana, are there a 
couple things in there that your organization would highlight. 
Not that you would expand your national list but that there 
would be sublists that, in effect, could supplement because 
often those things are viewed as, ``Oh, that is national. We 
are focused on our State and local.'' It is an interesting way 
to kind of highlight and supplement what we are trying to do in 
highlighting the problems of the National Park Service.
    Then the other thing is not just the buildings but some of 
these collections inside. In historic preservation do you view 
your organization, primarily it is buildings, but do you focus 
on collections as well?
    Ms. Fenollosa. Yes, I would say that we do and we have in 
the past. In terms of your earlier question, as a national 
organization we try very hard to work very closely with our 
statewide and local partners. No one at the State or local 
level wants to be told by an organization in Washington, DC, 
what should be important to them.
    Your former colleague and our great representative Tip 
O'Neill used to say that, ``All politics is local but all 
preservation is local.'' Therefore, for the National Trust to 
do this might imply a right to those places that we don't have, 
a right to the prioritization of those places that we don't 
have.
    What we do is we work with the organization such as the 
Indiana Landmark Preservation group to ensure that we support 
them in what they do so that if they identified the Indiana 
Dunes as being a significant place, we will work with them to 
our regional office to focus whatever attention we can as a 
national organization on that place.
    We have identified places like prairie churches throughout 
the midwest where there is a unified theme, where there is some 
sort of resource that has impacted a great number of people 
that is suffering the same kinds of problems such as deferred 
maintenance or lack of funding to focus on these things as a 
unified whole, as a systemic problem that perhaps is 
transferrable to other parts of the country.
    Could we do something such as you suggest? Absolutely. To 
focus on a subset of national parks or a subset of issues of 
national parks, yes, I believe we could. In fact we have tried 
to expand the partnership with the National Park Service 
through our regional offices and through our headquarters, the 
Park Service headquarters in Washington and our headquarters in 
Washington to try to find places where we can work together to 
try to save these places, to use the various assets that each 
group has, the avenues that we have and the politics that we 
have or don't have.
    Mr. Souder. For example, it wouldn't even have to be done 
nationally but as national organizer you could have Indiana 
suggest which things in the national park sites or government 
sites in the State should be included in that list. Another 
model of this is the ``U.S. News and World Report'' has done 
such a great job by however they arbitrarily rate the best 
colleges and universities in the country but everybody has 
gotten used to that and your endangered list is very similar to 
that but they break it down.
    The front page of the Fort Wayne newspaper the other day 
had three local colleges ranked in the top 25 of the private 
universities under 1,000 in this three-State area. It still 
helps you focus, particularly those of us in public policy who 
are looking to say which is the panic thing because planning 
ahead is like this far. It helps us identify priorities. I am 
not meaning to be critical. I am just looking for innovative 
ways that this might help.
    I am also very interested because I believe it was in your 
magazine that I saw this about the Adams collection and how we 
don't lose these pieces. The land trust organizations have done 
a better job, I think, with land. It is like we are anymore 
getting multiple tiers of how adjacent lands are held together 
but we haven't really figured out how to do it with objects as 
much.
    Ms. Fenollosa. We haven't. That is absolutely true. I would 
say that the consciousness of the American people isn't as 
raised for matters of historic preservation, the preservation 
of objects and sites, as it is for landscapes. I think the 
environmental community sets the standard of how we should all 
organize ourselves to promote an agenda.
    As to where the appropriate place for that kind of 
organizing is I would hope the National Trust would take the 
lead. But I also believe that Mr. Kennedy's organization does 
precisely that.
    Mr. Souder. The NPCA does a great job.
    Ms. Fenollosa. They have that broad perspective.
    Mr. Kennedy. The American Museum Association--the next time 
you have the Smithsonian before you inquire as to its national 
role under its original endowment as acting as a national 
clearinghouse, not just the proprietor of its own property. You 
might want to ask them to look again at James Smithson's gift 
and the initial hearings, John Quincy Adams and Jefferson Davis 
among those present, as to what its job is to help precisely 
with the curatorial function which is different from the land 
conservation function. The Park Service has both and the NPCA 
does what it can. Essentially this is a curatorial function you 
are talking about and there are people who do that for a 
living.
    Mr. Souder. It is not a very active caucus. It is a small 
caucus and ironically yesterday we were trying to get the 
national parks caucus going but Congressman Turner, who was in 
yesterday, is a co-chair of the preservation caucus to try to 
protect the trust. As former mayor of Dayton he was interested 
in how to preserve older buildings. Which, by the way, also 
illustrates one of the other things that we need to figure out 
how to capitalize on.
    It has been very interesting as I have worked through this 
hearing process. Individual Members will get on the bill or 
come up and talk to me but Congressman Turner just completed 
2\1/2\ weeks where he flew back to his district three times 
abandoning his wife and kids a couple times on this tour as we 
politicians sometimes do.
    But they did like 10 different parks and he was recreating 
something that his dad had done with him when he was 12 and his 
children are 11 and 13 and he is all fired up to help with the 
Parks things. Congressman Platts, who has had our Gettysburg 
hearing, has been the last, I think, 3 years taking his kids on 
a parks tour. When I was out west Heather Wilson has now done 
it the second summer with her family on a parks tour.
    Well, when they start to get out there if we can have them 
meet the different people and see that, it is a great way to 
communicate values. As we get people interested, they want to 
know, ``What can we do specifically?'' Sometimes if I have a 
criticism of landmarks and the trust is when we hear preserve 
all prairie schools, preserve all bridges, preserve all 
churches.
    In political terms you look at that and say can't do it. 
Where is the priority in my given area? How do I deal with this 
in this town and this county. I am not an expert and I'll never 
be an expert. My staff will never be experts in it. The people 
who are in this need to give us some prioritization so we know 
how to focus and work.
    Ms. Fenollosa. Unfortunately most preservation 
organizations, most grassroots efforts get their impetus, get 
their energy from the potential loss or the actual loss of a 
beloved place and that is what prompts the process. Suddenly it 
is too late because the property they love, the property that 
they always expected would be there, their local landmarks are 
gone.
    It is then when they turn around and say, ``Oh, my 
goodness. What could we have done about this?'' We tend to 
expect that our important buildings will always be here. We 
just expect it so that when a building, a place, a historic 
landscape is compromised, is endangered, we haven't been good 
at figuring out how to save it because we just expect that it 
would always be there.
    I think the opportunities working through the National 
Trust, through the National Park Service, through the National 
Park Conservation Association, these groups have an obligation 
to educate people that these places are not always going to be 
there. You are right, the list is a good way of doing that but 
the list has to start locally and build. It has to build State-
wide but it has to go national-wide and then it has to build 
interagency-wide because these places are just too precious and 
we can't afford to lose them.
    Mr. Souder. Mr. Olson, did I understand in your testimony 
you stated that you were funding seasonal rangers through your 
organization? Is that what you said?
    Mr. Olson. We are not funding seasonal rangers.
    Mr. Souder. It makes possible the employment of about 115 
seasonal workers.
    Mr. Olson. 115 seasonal workers inside the park and outside 
the park who are directly serving it. For example, bus drivers 
who are not on a national park payroll. A good amount of our 
money is funding people who work for Acadia National Park or 
people that we detail to work for Acadia National Park.
    We try to do it in a way that is add on. As I said before, 
it is ad valorem philanthropy in the sense that the Park 
Service capacity to do a project doesn't exist unless we step 
in. An example being our trails endowment. The trails of Acadia 
National Park of which there are 130 miles would never have 
received any kind of priority or private funding not 
interjected into the picture. We did that and, as a 
consequence, the park's trail crew for doing that work has 
grown and so we make possible things that couldn't have 
happened without private money.
    Mr. Souder. In looking at the role of private money in 
developing things like that, do you believe if the private 
money developed something inside of a park they should also 
have a sustainability for what they developed as opposed to--in 
other words, this is a philosophical question partly.
    If the representatives of the taxpayers have said this is a 
prioritization of funding and a Friends group set something up 
that then needs to be maintained and wasn't part of the elected 
group. I am not saying it is a very pure election because we 
are talking about a tier, a tier, a tier, a tier but, 
nevertheless, are still responsible inside an elective system.
    I am very supportive of Friends. I am just trying to work 
through mentally how this works should a gift come with a 
support endowment with it or a way to maintain that because a 
second unstated part of this is a zero sum game like the Park 
Administration is more or less in. Whenever there is an 
addition, there is a subtraction. In effect, strong Friends 
groups and groups like Grand Canyon, Yosemite, and so on that 
just do additive things that then have to be maintained by the 
park budget in effect take it from poorer parks without Friends 
groups.
    Mr. Olson. Yes, I understand that problem. I can tell you 
how Friends of Acadia does it. We have helped rehabilitate the 
44-mile carriage road system which was gifted to the American 
public through John D. Rockefeller, Jr.'s will and those roads 
had fallen into disrepair. We had a meeting with our then 
representatives who included Senior Mitchell and then 
Congresswoman Olympia Snow, the superintendent of Acadia 
National Park, a representative of the Friends of Acadia, and 
some others.
    The agreement that we came to was that the responsibility 
would be divvied up in a public/private effort where the public 
sector through Senator Mitchell and others would seek a $4 
million appropriation to reconstruct the carriage roads. In 
other words, to do the capital work. Friends of Acadia was 
asked to raise $4 million to endow the roads and perpetuities.
    That became a good model. That generates now about $260,000 
a year for the Park Service to actually have seven people on 
those roads who weren't able to work on those roads before. We 
intend it to be forever. We are subject to market influences.
    The 3-year down market didn't help us very much in our 
grantmaking ability but we still managed to find the funds to 
do this so what we are trying to promise as a model is 
elimination of some of the vicissitudes of congressional 
funding but not all of it. We are looking at the maintenance 
question and that is just one of several endowments that we 
have.
    Why this is not used in other national parks among their 
Friends groups I don't know. They have chosen to emphasize 
capital projects and then to, I think, convince the 
policymakers that the private sector has now done its share and 
it is now a legitimate responsibility of the National Park 
Service to maintain them and please have the funds available.
    Mr. Souder. Mr. Kennedy, do you have any comment on that? 
Have you seen it Park System wide?
    Mr. Kennedy. Yeah. That was such a polite exchange that the 
implications, I guess, we could leave in the polite stage but 
there is no question that the Friends of Acadia understand what 
endowing means. You do something and then you pay to keep it 
going.
    This reinforces an earlier point which we were very polite 
about also but needs maybe to be emphasized. Private giving is 
private giving. Each of us make a choice whether we are going 
to give or not. We don't want to be bludgeoned into giving 
because the Congress didn't do its job. It isn't true that if 
you say, ``Well, too bad. We, the Congress, aren't going to do 
our job. It is up to you.''
    That doesn't produce in a lot of us a deep sense that it is 
up to us to come forward to make up for it. It is a big mistake 
for the Congress to think that it just ought to throw the 
responsibility over to the private sector because the private 
sector being private may decide it wants to give its money to 
something else. Congress has to do its job. Almost every 10 
years somebody has the bright idea, ``Oh, well. The people who 
use it ought to pay for it,'' which ignores the notion that may 
be unborn so far, posterity isn't there to represent itself.
    Mr. Souder. Let me throw out a variation. I would be 
interested in your response and Mr. Olson's in particular, and 
that is part of what happens is that different things are added 
to our Park System whether you want to call it park barreling 
or temporary phenomena that we say it is a personal interest to 
somebody if we add this. It may or may not have public support. 
That is one class.
    A second may have public support because it seemed like a 
bright idea at the time. It often is a function of how much a 
particular Congressman will trade or end his career or whether 
he thinks something is going to be named after him or it 
defines him and helps cover another type of a problem.
    All those kinds of things are in the Park Service basically 
in the first four parks so it is not like a new phenomena. The 
one in Oklahoma and Mackinaw Island was in and out and Hot 
Springs were all there very early so it is not something new. 
But to some degree by having individuals pay, by seeing how 
strong your Friends group is, is that not somewhat of a 
winnowing process that the people are, in effect, determining 
which ones had longevity and where the support was as opposed 
to being a short-term?
    Mr. Kennedy. Yeah. As you point out, though, it could be 
just a rich person's personal pressure on the particular 
Congressman at the particular time. I think your earlier 
discourse leads us back to the phenomenon of the early 1990's 
in which there was a real effort on the part of Congressmen on 
both sides of the isle to find some way to make it harder for 
there to be a whimsical entry into the National Park System.
    The flaw in that process was that it got loaded up with the 
notion that we should spend a lot of time and money unloading 
parks. You spend vastly more time studying what you are going 
to unload than you would save having unloaded. That is the 
simple truth of the matter. It cost a lot more to the taxpayers 
to figure out what you can get rid of. It could take you 10 
years and you fiddle with it.
    That is a dumb idea. The not dumb idea is for the Congress 
to establish very, very high hurdles for new entries and really 
require the Park Service to commit itself with a view on any 
new entries before they can make it. If it were me playing the 
archangel, I would say two-thirds majority for any new park. 
Just make it tough.
    Mr. Souder. One of the wrinkles with that is and what I was 
kind of suggesting is one of the ways we actually deal with 
this is that--because I don't know that we will ever change a 
political--we can make it tougher but we will never make it so 
tough that it can't be varied with a waive of the rules. To 
some degree we determine whether it was a whimsical addition by 
the fact does it have broad popular support to subsidize the 
funding.
    Mr. Kennedy. On the other hand, sometimes the Nation isn't 
quite ready for Manzanar. The Nation may be ready for the 
Arizona but it may take some people with real courage to know 
that we had better remember what we did to our fellow citizens 
from time to time. After all, Manzanar is like Gettysburg. It 
is not a happy story but it is part of our story. You need to 
have some room for this. We have to make it tough to get in but 
you shouldn't have to have the built in constituency. There may 
just be a wise persuasive person who says----
    Mr. Souder. We waited almost too long on Angel Island as an 
example.
    Mr. Kennedy. Yeah.
    Mr. Souder. Another variation that is interesting--this is 
my first time this summer to Lassen Volcanic National Park 
which was interesting because right around the time the Park 
Service was being created, they have this volcano and so it 
gets added to the system. It might not have been added had that 
not been the case.
    On the other hand, now that it is in there, what it gives 
us the ability to see is what Mount St. Helens is likely to 
look like in 70 years so it might have been a somewhat 
historical fluke that it was there but now it is interesting to 
compare it to the other systems. It is a hard thing to predict 
but I was wanting to create a proxy.
    I would ask if you would elaborate a little bit more on 
Acadia, too, as far as how you see some of that relationship of 
people are, in effect, and I believe Acadia will always 
probably be pretty broadly supported. I have three questions 
for you. That is one.
    Second, Acadia scored really low in this rating of parks in 
qualitative area rounded and the pressure is on the Park 
System. Have you seen the ``National Geographic Traveller?''
    Mr. Olson. I am sorry. I couldn't hear you.
    Mr. Souder. There was like a group of experts that went in 
and evaluated based on the community pressures around it how 
the park was sustained and Acadia was one of the lowest of the 
major parts.
    Mr. Olson. Yes, I did see that.
    Mr. Souder. Then the third question is part of the thing 
there was that it said the neighboring community is feeling the 
kind of social--Bar Harbor has always been a wealthy retreat 
but whether it was going to change the community around it. 
That also leads into this question on the fees and how to make 
sure people can have access to the park as we get more charges.
    Mr. Olson. Yes. Let me take the last one first about the 
fees. At Acadia National Park the fee is now $20. It recently 
went up from $10 and it includes a transit fee. If you are a 
family of four, for example, you pay that fee or if you have 
six in the car or one person you pay that number. For a family 
of four to attend a movie in Ellsworth, the nearby community 
that has a year-round movie operation, I am guessing it is $28 
for four people for 2 years. It may be more than that now.
    As a market matter, the fees are very low. As an equity 
issue I think you raise a very good one when you talk about 
people who don't go to national parks. I think Bob McIntosh 
made a good point that it is probably less the fee at the park 
than it is the access, the habits of travel, the ability to 
take time, cohesive family, whatever it may be.
    But that doesn't, I think, negate the need for something 
like a people's pass, for lack of a better term, at this point 
in which, as you point out, there is a confidential exchange of 
financial information that is automatic through the IRS form 
and the choice of the person to receive a national park pass is 
done very quietly. It sounds like a great thing to do.
    Otherwise, the fees are held hostage to this question of 
equity over time and I don't think there is a real disequity in 
those fees and they should be allowed to float in a reasonable 
way because they do empower the park to do an incredible amount 
of work which is very visible to people. It is a popular 
program, as was stated earlier, because people can see the 
money going back into the ground. The Park Service does a 
really good job of explaining what it is doing with the money.
    On the question of the elite nature of the community, there 
is no question that the history of Acadia National Park is one 
of the first founded from private property and founded in a 
resort community which rivaled Newport, RI at the time. Sort of 
a Gatsby kind of community. There is that element of Mt. Desert 
Island that is always going to be there but there is also a 
Yankee tradition in Maine.
    There have been surveys done by the Park Service by 
visiting the local dump, the local post office, and places that 
are not frequented by visitors to find out how much use of the 
park is by local people. It turns out the carriage road system 
alone at Acadia National Park services 75 percent of the public 
who live on the island year round. I was so surprised at that 
number.
    There is still some residual resentment about the 
establishment of the park. We see it but it is not very much 
and it is usually a cranky individual or so. I think also any 
kind of conservation activity today, the white noise is that it 
is an elitist kind of activity when it is really an opening 
kind of activity. If you really believe in national parks you 
believe in the second part of the mission as much as you do the 
first part.
    The first part being conservation of resources and wildlife 
therein, and the second part being for the enjoyment of 
generations unimpaired. The generations part is a real thing 
and we want people to be able to use Acadia National Park 
whatever the social strata, economic strata may be. I think the 
elite question will always be there but it is insignificant 
really in the long run.
    As to community pressures, Acadia National Park is used by 
about 2\1/2\ million visitors in a year. A visit is one person 
going to the park for 1 day and coming back the next day would 
be a second visit so it is not unique individuals. Maybe there 
are 700,000 or 800,000 people that descend upon that island.
    There are definitely pressures, especially in the form of 
transportation on this granite pluton that is Acadia National 
Park and Mt. Desert Island. The physical limits are basically 
there as far as transportation goes. The community has mixed 
reactions about it because some merchants believe that people 
shop from automobiles and the more people in cars on the 
island, the happier they are.
    Whereas other people feel that the kind of irreversible 
thing that is happening socially about the living and visiting 
experience at Acadia National Park is a form of endangerment 
for what we all treasure. I would say if you consider the 
Census Bureau's moderate figures projecting to the year 2050, 
it expects that there will be 400 million Americans. We are 
about 300 million right now so 100 million Americans are going 
to be seeking rarities like Acadia National Park in numbers 
that we really don't appreciate yet and that will be tremendous 
pressure beyond what we have now on our national park and on 
our communities.
    Unlike in the American west where a rectangle of land is 
superimposed upon a piece of public domain, this national park 
is mixed private and public property so the National Park 
Service has a tremendous negotiating job every step of the way 
about community life and park life.
    And, finally, on broad support it is very frustrating, I 
think, for a Friends organization like us, or probably any 
Friends organization, to have to report that we have only 3,000 
members when maybe 700,000, 800,000 unique individuals use 
Acadia National Park in the course of a year. Or that our 
community has 5,000 year-round residents, 15,000 when you add 
the summer residents, and we still have only 3,000 people 
supporting national parks.
    We don't have the broad support that I believe is there and 
this is a conundrum for anybody who is in the nonprofit world 
because these parks are so available to so many kinds of 
people. Creating the alliances and the allegiances is a long-
term effort.
    When we talk about the problems that Roger raised about 
lobbying and where the constituencies are, I don't believe we 
have helped you very much. Although some excellent work is 
being done nationally by the National Parks Conservation 
Association, the Trust, and others, we still haven't been able 
to help you the way that you are asking us to do so. I think 
you should continue to ask us how to do this.
    I just want to make a comment, if I might about the--you 
mentioned the outsourcing question. This is an interesting one 
because Acadia National Park about 38 percent of the jobs that 
are in the park are held by people wearing the gray uniform and 
the flat hat. And 62 percent of the functions in Acadia 
National Park belong to nonprofits, for profit concessioners, 
motor tour buses, volunteers, etc.
    The question, I think, is to what extent do we consider the 
park already privatized or amply privatized? Have we perhaps 
exceeded something at Acadia National Park. Will people who 
volunteer or give money through private means wish to volunteer 
to work for a contractor? I don't know. Would they give to us 
if we are paying contractors? I don't know. There is something 
magic about the Park Service uniform and the dedication of 
employees that means a lot to how we try to sell, if you will, 
giving money to government.
    Mr. Souder. Lt. McCauley, in your organization you have 
worked with volunteers for years. You yourself have been a 
volunteer. Could you pick up on the last point a little bit? 
What motivated you to get involved? What motivates other people 
to get involved. Do you see younger people coming in as well 
with a passion and what do you think we might be able to do to 
get people like yourself to continue to do this?
    Lt. McCauley. In 1966 when I started to volunteer at the 
national park we were involved at that particular time with the 
Minute Man organizations locally here. I happened to have been 
the head of them. We volunteered our services to do 
demonstrations at Minute Man and became more involved in the 
Living History Program on our own.
    My wife became involved and started making clothing. We 
became so involved we went to Williamsburg to learn how to make 
it. We went to England to learn how to make clothes and 
involved our whole family and it became a tradition that we 
would attend the National Park System.
    In return the national park offered me their services of 
doing some training at other national parks. This I accepted 
but I must say that my profession at that time allowed me the 
time to do it. I am not sure that somebody in a paid regular 
day-by-day job would be able to take the time to do these 
things but it was a unique experience.
    I enjoyed it. I learned and I still pass it on to the point 
where I retired as an optometrist and went back to school and 
got my BA and MA in history with a certificate in Museum 
Studies and I continue this same idea of living history or 
using history right above us upstairs here.
    One of the most oppressing things I find on an everyday 
basis is the lack of knowledge of history. I am talking basic 
history. What does the 4th of July mean or things like that. 
People do not know. If you don't know, you won't take part. 
Somewhere along the line not necessarily the national park, in 
a school, or somehow we have to reeducate the people that we 
have a past and without that past being known to everybody our 
future isn't going to go any place.
    Mr. Souder. It is fascinating. We have legislation where we 
are trying to even just make sure history is covered in our 
schools anymore. In the same time as when you see young kids at 
the different places there is this fascination, even in the 
Civil War reinactments. On one hand, it is harder to get young 
people involved in the organization. On the other hand we have 
this proliferating use of the national battle fields in a way 
that none of us ever foresaw but it is a huge challenge.
    If, in fact, funds get tighter and we need volunteers, 
where are the volunteers going to come from and how do we get 
people? Particularly in historic preservationsites, you know, 
McCullogh and the late Stephen Ambrose could sell lots of 
books. We need more people like that who can keep the books up 
at the front.
    Let me mention one other thing that Mr. Olson kind of 
alluded to which I believe is one of the most amazing 
transformations in the National Park Service, and that is 
partly our big parks anymore aren't the traditional what people 
think of the big parks. It is Gateway, Golden Gate, Santa 
Monica, the ones by the big cities. It is a whole different 
challenge because we are talking 12 million, not 3 million at 
those parks.
    Brian O'Neil, who is kind of the apostle of this movement, 
has hit me with a statistic that just turned my head around and 
it related to what you said about Acadia and that is I think 
150 mile radius of the Yosemite National Park. A higher 
percentage of the people who visit Yosemite are from within 150 
miles and visit Golden Gate. That is counterintuitive because 
the whole thought of the national recreation areas where these 
are in the big cities they will function like city parks. Why 
aren't the cities doing these things?
    In the old days Olmsted would have done this as a city 
park. How come this is a national park? Why did that get into 
our system? But when you think about it, it is the conventions 
that people go to San Francisco and in their studies.
    The Japanese groups that come through, the people from the 
midwest who go to San Francisco convention, they don't have 
time to get in the car and go out to Yosemite. They go to the 
local Golden Gate Park so he is running like 20 percent higher 
than Yosemite beyond 150 miles which is totally 
counterintuitive, particularly given the numbers at that.
    I don't think Santa Monica is quite that way but Los 
Angeles had similar things. New York has certainly got a lot of 
that. Jones Beach stoics the whole thing but outside that you 
are approximate to a big city with lots of conventions, lots of 
tourism coming in and they can hit something in a couple of 
hours. I would assume Boston benefits from this to a degree, 
too, in the historic sites because every time there is a 
convention here, every time schools come into the city it is a 
different concept.
    In the Park Service it is a different challenge because 
historically we have been defined by big natural parks, the 
crown jewels and a few of the major historic parks. In reality 
this whole system has changed. Then in trying to look at 
funding and the conflicting things that we are doing here. To 
name one of my favorites is San Antonio Mission Park. How do 
you count attendance there?
    When I went there, there were, I think, maybe you might 
have seen as many as 30 people at the Mission and you might 
have seen as many as 2,000 people picnicking on the grounds 
from the Hispanic community in San Antonio. Great Falls is a 
similar thing. This wasn't meant as a picnic park but with so 
little green space and we say, well, the Hispanics aren't 
coming to our national parks.
    Well, they are going to that one or they are going to 
others but they are using them more like recreation areas. Then 
maybe they will wander over and see the Mission and be exposed 
to it. We have to think there are parking challenges. There are 
different use challenges. At Sequoia you see these people going 
down where they are not supposed to be going down in plastic 
bags sliding like it is for sledding but it is not the 
designated sledding area but we wanted to get them into the 
park.
    How are we going to accommodate kind of the different 
usages? The fundamental question by just focusing on backlog 
which we tried to work through. We want to get the backlog. We 
want to get the overhead but the truth is if we are going to go 
from 300 million to 400 million, you are right.
    The pressure on the existing space and the existing green 
spaces is people want to see those. They want to share it with 
their family. They want to get out. This is not just a Federal 
problem, although I am a Congressman and we are doing it. Where 
in the world are our State parks and our city and county parks 
because it is putting extra pressure on the Federal system 
because many of the States haven't updated their State park 
system for so long.
    Mr. Olson. I just wanted to respond to that. I really 
appreciate what you're saying. I think one of the things that 
is going on is that as different user groups historically have 
used parks, they weren't really sure they were in a national 
park or a national forest back when those were just relatively 
natural areas.
    Mr. Souder. Now they know it because they have a fee at 
each one as they go through like BLM. That is a joke.
    Mr. Olson. I thought we could do a survey, even at Acadia 
National Park, of our fairly homogeneous users, although there 
is a lot of increasing international use. Many of them would 
answer to a question of who runs this facility, ``Whose land 
are you on?''
    I really wonder whether we get a national park as an answer 
on its own by them or in trust by the government, or whether 
they think it is a State operation, or they think it is a 
private operation and if you look at that from the standpoint 
that it has probably always been that case, the Department of 
Interior, people don't know the difference between that and the 
Department of Agriculture. If you add in a lot of new users who 
are putting the pressures on the place, they don't understand 
that maybe there is a single really estimable agency out there 
that is doing this and there is a lot of private that is doing 
it.
    You can be part of it now that you know about it. That is 
the education job that has to occur in national parks. I bet we 
could do that survey and prove that hypothesis that a lot of 
people don't know they are in a national park, especially in an 
urban setting.
    Mr. Souder. At Redwood when you get in the national park 
there is no such thing like a system. Everything is kind of a 
variation. At Redwood it is the Redwood National and State 
Parks because the State parks preserve the land. The Federal 
was slow. Now the Federal has kind of this connective between 
the State parks.
    What is interesting to watch some of the chaos that occurs 
from this and we are going to have to figure out how to deal 
with. The State now with, I think, 120 Federal employees in 40 
States but the State has been declining and the Federal has 
been increasing even though almost all the land is State which 
then raises questions like the national park boundary that goes 
around the State parks. It isn't national park land anyway.
    There is an area that the State has added that is critical 
water shed that the State hasn't added employees to cover that 
water shed and the Federal employees aren't allowed to go into 
that watershed because it is not part of the boundary. It is 
just this fascinating mosaic of individual cases brought under 
a system. I know you, having presided over that share, that 
this is some of what becomes big challenges because the State 
and local have to be partners in this as well if we are going 
to be partnered in the parks.
    Mr. Kennedy. One of the things that is striking to me is 
that your attention to this subject is remarkable. I said 
earlier that it was remarkable. It also represents a further 
argument for the importance of the National Park Service as a 
group of professionals who are around all the time competent 
and growing in competency in balancing precisely these complex 
questions because that is what they get paid to do every day. 
That is their job.
    Now, you are wonderful and extraordinary. No irony, but you 
are also exceptional. The Congress doesn't give this kind of 
oversight, doesn't pay this kind of attention, doesn't bore in 
very often. While we are grateful for that, that really means 
that most Congressmen attend to it very, very occasionally.
    You have to have a professional service that does its job, 
that understands the evolutions and complexities and cares a 
whole lot about resolving precisely these kinds of ambiguities 
because you can't do that full-time. You have a few other 
things to do with your life. The necessity for a qualified 
compensated honestly advanced high morale public service 
professional group, that is the core of the ambiguities that 
you have been addressing simply because it is so extraordinary 
that you are paying attention.
    Let us hear it for the State Park System's evoling 
professional skills. Let us hear it for the National Park 
Service and let us be real careful in the Congress that we make 
it as easy as possible for people to make good careers in that 
service and be thanked for it so we don't outsource the system 
and lose those continuities.
    Mr. Souder. I thank you for your passion and everybody's 
passion with this. Would anybody like to add anything before we 
conclude? Any additional comments? If you want to add anything 
after we adjourn in the record, we will be doing, in addition, 
each hearing comes out as a published book after a number of 
months. We are going to be putting this together as a national 
report which hopefully will supplement what NPCA has been doing 
but inside Congress and that is where we are headed.
    In the first hearing it was kind of defining and taking 
subgroups. Today was a little more focus on the history angle. 
Our next one in Seattle will be more natural parks with a 
couple variations there of some of the State and local 
cooperations, Lewis and Clark being a new park and a classic 
example of State and local. Grand Canyon and the Arizona parks 
in that area will be a whole other type of thing.
    We know what our constant is, there isn't enough money if 
we are going to maintain this system. We need to have a frank 
analysis inside Congress that there isn't enough money. But 
underneath that what does that mean? What does it mean for 
local parks? What does it mean for the quality of the 
personnel?
    What does it mean for historic preservation? What tradeoffs 
are we making because every day we are making tradeoffs but we 
don't know we are making them, and to try to articulate the 
tradeoffs inside to the degree we can simplify this incredibly 
complex thing.
    I will finish with this. My dad thought this was just 
hilarious and I thought it was the stupidest thing when I was 
in high school. I was in band and he got this plaque when we 
were on vacation and he gave it to the band director. The band 
director put it up and we had to watch every day in band. It 
said, ``Why can't all of life's problems come when I am young 
and know all the answers?''
    It is kind of like when you get into the Park Service you 
come in with a couple of ``Why don't we do this and this and 
this?'' Then you realize this is exceptional. They have 
snowmobiles here for 3 months of the year and it was 
grandfathered in and every park has these unique things. We are 
trying to figure out what commonalities are there.
    How can we simplify this enough and yet show the incredible 
complexity of this system which most Americans don't even 
understand the complexity? They see a brown sign and assume 
that the same rules apply everywhere and they don't. Now 
national monuments are in BLM and Forest Service, too, which 
further confused matters. We are trying to work this through.
    I believe we are getting a group of members who are paying 
attention and I thank all of you for your passion because that 
is what is going to make the difference because the National 
Park System is our contribution to the world and we are going 
to do our best that, at least, while we can make noise we will 
continue to make noise. I hope I continue to do it at age 80 
like Mr. Kennedy.
    Thank you very much. Thank you all those who attended. The 
subcommittee is adjourned.
    [Whereupon, at 1:02 p.m. the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
